1a
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
TRINA RAY, individually, and
on behalf of others similarly
situated,
Plaintiff-Appellee,

No. 17-56581
D.C. No.
2:17-cv-04239PA-SK,

v.
COUNTY OF LOS ANGELES,
Defendant-Appellant.
TRINA RAY; SASHA WALKER,
individually, and on behalf
of all others similarly situated,
Plaintiffs-Appellants,

No. 18-55276
D.C. No.
2:17-cv-04239PA-SK,

v.

OPINION

LOS ANGELES COUNTY DEPARTMENT OF PUBLIC SOCIAL SERVICES,
Erroneously Sued As County
of Los Angeles,
Defendant-Appellee.
Appeal from the United States District Court
for the Central District of California
Percy Anderson, District Judge, Presiding
Argued and Submitted March 7, 2019
Pasadena, California
Filed August 22, 2019.

2a
Before: Kim McLane Wardlaw and Mark J. Bennett,
Circuit Judges, and Kathleen Cardone,*
District Judge.
Opinion by Judge Bennett
COUNSEL
Jennifer Mira Hashmall (argued) and Jeffrey B. White,
Miller Barondess LLP, Los Angeles, California, for Defendant-Appellant/Cross-Appellee.
Matthew C. Helland (argued) and Daniel S. Brome,
Nichols Kaster LLP, San Francisco, California; Philip
Bohrer, Bohrer Brady LLC, Baton Rouge, Louisiana;
for Plaintiff-Appellee/Cross-Appellants.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

OPINION
BENNETT, Circuit Judge:
This case concerns whether a county is an arm of
the state and thus entitled to Eleventh Amendment
immunity when it shares responsibility with the state
for implementing a state-wide homecare program. We
also consider the effective date of regulations that (1)
a district court vacated before their original effective
date; (2) an appellate court upheld, reversing the district court; and (3) the agency then decided not to enforce until a date after the original effective date. We
agree with the district court that the County of Los
* The Honorable Kathleen Cardone, United States District
Judge for the Western District of Texas, sitting by designation.

3a
Angeles is not entitled to Eleventh Amendment immunity but disagree as to the effective date of the regulations, which we hold is the original effective date of
January 1, 2015. We thus affirm in part, reverse in
part, and remand.
FACTS
California’s In-Home Supportive Services program (“IHSS program” or “the program”) provides
in-home supportive services to eligible low-income elderly, blind, or disabled persons. Homecare providers
help recipients with daily activities like housework,
meal preparation, and personal care. The program
serves hundreds of thousands of recipients. In the
County of Los Angeles alone there are about 170,000
homecare providers and more than 200,000 recipients.
California implements the program through regulations promulgated by the California Department of Social Services (CDSS), and the program is administered
in part by California counties. Plaintiffs are current or
former Los Angeles IHSS homecare providers.
The State and its counties share responsibility for
implementing and running the IHSS program. The
CDSS ensures that “in-home supportive services [are]
provided in a uniform manner in every county,” Cal.
Welf. & Inst. Code § 12301(a), and it must “adopt regulations establishing a uniform range of services available to all eligible recipients based upon individual
needs,” id. § 12301.1(a). The State also procures and

4a
implements a “Case Management Information and
Payroll System.” Id. § 12317(b).
But counties have some oversight of the IHSS program as well. They, like the State, may terminate
homecare providers. See id. § 12300.4(b)(5). And counties evaluate recipients and ensure quality compliance.
See id. § 12301.1. Counties also “ensure that services
are provided to all eligible recipients.” Id. § 12302.
Plaintiffs claim that although they receive paychecks
from the State, the County is responsible for a “share”
of their wages. For example, if a county imposes “any
increase in provider wages or benefits [that] is locally
negotiated,” then “the county shall use county-only
funds” to fund that increase. Id. § 12306.1(a). Each
county also determines whether its providers may exceed the maximum number of hours set by the CDSS.
See id. § 12300.4(d)(3).
As employers of the homecare providers, the State
and County must comply with the Fair Labor Standards Act’s (FLSA) overtime wage requirements. See 29
U.S.C. § 207(a)(1). But that wasn’t always the case.
In 1974, Congress created a “companionship exemption” to the FLSA for employees “employed in domestic service employment to provide companionship
services for individuals who (because of age or infirmity) are unable to care for themselves.” See id.
§ 213(a)(15); Fair Labor Standards Amendments of
1974, Pub. L. No. 93-259, 88 Stat. 55. This exemption
applied to homecare providers like Plaintiffs.

5a
In October 2013, however, the Department of
Labor (DOL) promulgated a new rule that changed
the definition of “companionship services” so that
homecare providers like Plaintiffs would be entitled to
overtime pay under the FLSA. See Application of the
Fair Labor Standards Act to Domestic Service, 78 Fed.
Reg. 60,454, 60,454 (Oct. 1, 2013) (codified at 29 C.F.R.
pt. 552). The final rule had an effective date of January
1, 2015. See id.
Before the rule’s effective date, a group of “trade
associations that represent businesses employing
workers” subject to the FLSA exemption filed a lawsuit
in the District Court for the District of Columbia. See
Home Care Ass’n of Am. v. Weil, 76 F. Supp. 3d 138, 142
(D.D.C. 2014) (Weil I). The plaintiffs claimed that the
rule was arbitrary and capricious and thus sought to
enjoin its implementation. Id. at 139. At step one of its
Chevron analysis, the district court found that Congress had “clearly spoken” on the issue. Id. at 146. The
district court then vacated the rule, id. at 148, and the
DOL appealed.
On August 21, 2015, the D.C. Circuit reversed and
ordered the district court to enter summary judgment
for the DOL. Home Care Ass’n of Am. v. Weil, 799 F.3d
1084, 1087 (D.C. Cir. 2015) (Weil II). Although the DOL
prevailed, on September 14, 2015 it announced that it
would “not bring enforcement actions against any employer for violations of FLSA obligations resulting
from the amended domestic service regulations for 30

6a
days after the date the mandate issues.”1 Application
of the Fair Labor Standards Act to Domestic Service;
Announcement of 30-Day Period of Non-Enforcement,
80 Fed. Reg. 55,029, 55,029 (Sept. 14, 2015) (codified at
29 C.F.R. pt. 552). The Weil II mandate issued on October 13, 2015.
On October 27, 2015, the DOL said that it would
not begin enforcing the final rule until November 12,
2015. And, echoing its September 14, 2015 statement,
the DOL again said that
from November 12, 2015 through December
31, 2015, [it would] exercise prosecutorial discretion in determining whether to bring
enforcement actions, with particular consideration given to the extent to which States and
other entities have made good faith efforts to
1

The DOL also stated:
This 30-day non-enforcement policy does not replace or
affect the timeline of the Department’s existing timelimited non-enforcement policy announced in October
2014. 79 FR 60974. Under that policy, through December 31, 2015, the Department will exercise prosecutorial discretion in determining whether to bring
enforcement actions, with particular consideration
given to the extent to which States and other entities
have made good faith efforts to bring their home care
programs into compliance with the FLSA since the
promulgation of the Final Rule. The Department will
also continue to provide intensive technical assistance
to the regulated community, as it has since promulgation of the Final Rule.
Application of the Fair Labor Standards Act to Domestic Service;
Announcement of 30-Day Period of Non-Enforcement, 80 Fed.
Reg. at 55,029.

7a
bring their home care programs into compliance with the FLSA since the promulgation of
the Final Rule.
Application of the Fair Labor Standards Act to Domestic Service; Dates of Previously Announced 30-Day Period of Non-Enforcement, 80 Fed. Reg. 65,646, 65,646
(Oct. 27, 2015) (codified at 29 C.F.R. pt. 552).
Before the Weil I decision, California (through the
CDSS) began taking steps to “meet the January 1,
2015, implementation date,” including modifying its
systems to “process and calculate overtime compensation.” But after the Weil I decision, the CDSS decided
that it would not implement overtime payments “until
further notice.” After Weil II, the CDSS again said that
it would comply with the overtime requirements—but
not until February 1, 2016.
In June 2017, Ray filed a putative collective action,2 under Section 216(b) of the FLSA, against the
State of California and the County of Los Angeles.
Ray’s complaint sought relief for herself and the putative collective for unpaid overtime wages between January 1, 2015—the rule’s original effective date—and
February 1, 2016, the date on which the State began
paying overtime wages.
As relevant here, the County moved to dismiss
the complaint on Eleventh Amendment immunity
2

Collective actions are provided for in the FLSA and are different from class actions, see Campbell v. City of L.A., 903 F.3d
1090, 1101 (9th Cir. 2018), but the differences are not relevant to
this appeal.

8a
grounds.3 In the alternative, the County moved to
strike all references in the complaint to overtime
wages allegedly earned before October 13, 2015—the
date on which the mandate issued in Weil II.
The district court first held that the County had
no Eleventh Amendment immunity. The district court
noted that the Supreme Court has long refused to
grant Eleventh Amendment immunity to counties and
that the Court has already held that California counties are not arms of the State. The district court then
assumed arguendo that a county could be an arm of
the State under the five-factor test that we set out in
Mitchell v. Los Angeles Community College District,
861 F.2d 198 (9th Cir. 1988) for determining whether
an entity is an arm of the state for purposes of Eleventh Amendment immunity. The district court found
that only one of the five factors favored the County, and
thus it held that the County enjoyed no Eleventh
Amendment immunity.
The district court then “reject[ed] Plaintiffs’ efforts
to enforce the FLSA companionship exemption regulations retroactively to January 1, 2015.” Instead, it held
“that the putative collective period extends from November 12, 2015, through January 31, 2016,” and not
before. The court said that although the Weil II decision applied retroactively, that decision was merely
that the DOL could amend the FLSA and that those
3

Early on, Ray voluntarily dismissed the CDSS as a defendant, and Plaintiffs did not name the State as a defendant in the
now-operative complaint.

9a
amendments were not arbitrary and capricious. This,
the district court held, differed from “the retroactive
application of the amended regulations themselves.”
The district court reasoned:
The rule of law announced by the D.C. Circuit
is given retroactive effect by allowing DOL to
reinstate those regulations without having to
begin a new rule-making process. That is not
the same thing as reinstating an earlier and
judicially vacated effective date and retroactively creating liability for violations of the reinstated regulations as if the District Court’s
vacation of the regulations had never occurred.
The district court also found it “compelling” that
both the D.C. Circuit and the DOL “intended” that the
regulation become effective “no earlier than November
12, 2015.” As evidence of this intent, the district court
pointed to the DOL’s decision not to enforce the new
regulations before that date.
Finally, the district court found that its holding
was consistent “with the general rule that a private
right of action should ordinarily not exist when the applicable rule could not be enforced by the relevant enforcement agency.”
The County filed an interlocutory appeal as to the
denial of Eleventh Amendment immunity. The district
court granted Plaintiffs’ motion to certify for interlocutory appeal the district court’s holding that the putative collective period began on November 12, 2015, and
we granted Plaintiffs’ request to appeal that holding.

10a
DISCUSSION
We review de novo the denial of Eleventh Amendment immunity. Cal. ex rel. Lockyer v. Dynegy, Inc., 375
F.3d 831, 843 n.12 (9th Cir. 2004). We construe the motion to strike as a motion to dismiss in part, and thus
we review the effective date holding de novo because it
essentially dismissed Plaintiffs’ overtime claims for
the period between January 1, 2015 and November 12,
2015. See Yamaguchi v. U.S. Dep’t of the Air Force, 109
F.3d 1475, 1482 (9th Cir. 1997).
A. The County is not entitled to Eleventh
Amendment immunity.
Plaintiffs first argue that Eleventh Amendment
immunity is never available to counties. The County
argues that it enjoys Eleventh Amendment immunity
when acting as an “arm of the State.”
Federal courts have long declined to extend Eleventh Amendment immunity to counties.4 Indeed, the

4

See, e.g., Lake Country Estates, Inc. v. Tahoe Reg’l Planning
Agency, 440 U.S. 391, 401 (1979) (“[T]he Court has consistently
refused to construe the Amendment to afford protection to political subdivisions such as counties and municipalities, even though
such entities exercise a slice of state power.” (internal quotation
marks omitted)); Lincoln Cty. v. Luning, 133 U.S. 529, 530 (1890)
(holding that the Eleventh Amendment does not bar a suit
against a county, though the principle advanced has changed over
time); Del Campo v. Kennedy, 517 F.3d 1070, 1075–76 (9th Cir.
2008) (“State sovereign immunity . . . does not extend to counties
and similar municipal corporations, even though they share some
portion of state power.” (internal quotation marks omitted)

11a
Supreme Court once said that Eleventh Amendment
immunity does not extend to municipal corporations.
Mt. Healthy, 429 U.S. at 280. But thirty years later, the
Supreme Court suggested that it was at least possible
for a county to receive Eleventh Amendment immunity. In Northern Insurance Company of New York v.
Chatham County, 547 U.S. 189, 190 (2006), which involved a county-operated drawbridge, the Court stated
that a county might be entitled to Eleventh Amendment immunity if it were “acting as an arm of the
State, as delineated by this Court’s precedents, in operating the drawbridge.”5
The Court cited several cases for this proposition.
First, Alden v. Maine: “The second important limit to
the principle of sovereign immunity is that it bars suits
against States but not lesser entities. The immunity
does not extend to suits prosecuted against a municipal corporation or other governmental entity which is
not an arm of the State.” 527 U.S. 706, 756 (1999). This
sentence means one of two things: either (1) that Eleventh Amendment immunity does not extend to
(quoting Mt. Healthy City Sch. Dist. Bd. of Educ. v. Doyle, 429
U.S. 274, 280 (1977))).
5
At least one circuit has relied on this language and held
that counties might be entitled to Eleventh Amendment immunity. See Fuesting v. Lafayette Par. Bayou Vermilion Dist., 470 F.3d
576, 579 (5th Cir. 2006) (“[A] municipality can be immune from
suit if it was ‘acting as an arm of the State, as delineated by [the
Supreme] Court’s precedent’ ” (alteration in original) (quoting
Chatham, 547 U.S. at 194)). But, to our knowledge, no court has
ever actually extended Eleventh Amendment immunity to a
county.

12a
municipal corporations because they are not arms of
the state or (2) that Eleventh Amendment immunity
does not extend to a municipal corporation unless it is
acting, in a particular circumstance, as an arm of the
state. Alden in turn cites Mt. Healthy, in which the
Court considered whether “the Mt. Healthy Board of
Education is to be treated as an arm of the State partaking of the State’s Eleventh Amendment immunity,
or is instead to be treated as a municipal corporation
or other political subdivision to which the Eleventh
Amendment does not extend.” Mt. Healthy, 429 U.S. at
280. That citation suggests the former reading.
The Chatham Court also cited Lake Country Estates, but while that case noted that “some agencies exercising state power have been permitted to invoke the
[Eleventh] Amendment in order to protect the state
treasury from liability that would have had essentially
the same practical consequences as a judgment
against the State itself,” it also stated that “the Court
has consistently refused to construe the Amendment to
afford protection to political subdivisions such as counties and municipalities, even though such entities exercise a ‘slice of state power.’ ” Lake Country Estates,
440 U.S. at 400–01. Although these passages seem to
support Plaintiffs’ argument that counties never enjoy
Eleventh Amendment immunity, it is not for us to clarify Chatham’s apparently contrary statement.
The Chatham Court ultimately found it dispositive that the County there had conceded below that it
had no Eleventh Amendment immunity and that the
question on which certiorari was granted assumed

13a
that conclusion. Given that the Supreme Court appears to have left open the possibility that a county
could be entitled to Eleventh Amendment immunity in
some cases, we decline to hold to the contrary. We
therefore assume without deciding that, consistent
with the Court’s language in Chatham, a county might
be entitled to Eleventh Amendment immunity if acting
as an arm of the state.
1. The County is not an arm of the State here.
In Mitchell, we set out five factors for determining
whether a government entity is an arm of its state
for Eleventh Amendment immunity purposes: (1)
“whether a money judgment would be satisfied out of
state funds”; (2) “whether the entity performs central
governmental functions”; (3) “whether the entity may
sue or be sued”; (4) “whether the entity has the power
to take property in its own name or only the name of
the state”; and (5) “the corporate status of the entity.”
861 F.2d at 201. “To determine these factors, the court
looks to the way state law treats the entity.” Id.
a. First Mitchell factor
“The first Mitchell factor—whether a money judgment . . . would be satisfied out of state funds—is the
most important.” Sato v. Orange Cty. Dep’t of Educ., 861
F.3d 923, 929 (9th Cir. 2017); see also Beentjes v. Placer
Cty. Air Pollution Control Dist., 397 F.3d 775, 785 (9th
Cir. 2005) (noting that the first Mitchell factor is “the
one given the most weight”). The County conceded,

14a
both below and on appeal, that it cannot show that a
money judgment would be paid directly with State
funds.6 Thus, this factor weighs against Eleventh
Amendment immunity.
b. Second Mitchell factor
As to the second Mitchell factor—whether the
County performs central governmental functions—we
must determine whether the County addresses “a matter of statewide rather than local or municipal concern,
and the extent to which the state exercises centralized
governmental control over the entity.” Beentjes, 397
F.3d at 782 (internal quotation marks omitted) (first
quoting Belanger v. Madera Unified Sch. Dist., 963 F.2d
248, 253 (9th Cir. 1992); then quoting Savage v. Glendale Union High Sch., Dist. No. 205, Maricopa Cty., 343
F.3d 1036, 1044 (9th Cir. 2003)).
To begin, it is unclear whether the second Mitchell
factor concerns whether the County performs central
government functions in general or whether the
County performs central government functions in carrying out the particular function at issue—here implementing the IHSS program.
As the district court correctly noted, the closest analogue in our case law is Streit v. County of Los Angeles,
236 F.3d 552 (9th Cir. 2001). There, the Los Angeles
6

The parties discuss at length how the County and the State
allocate the costs of the program, but that is not relevant—what
matters is who would be responsible for satisfying a money judgment against the County, not who pays for the program.

15a
County Sheriff ’s Department (LASD) would check its
systems, before releasing a prisoner, to see if the prisoner was wanted by another law enforcement agency.
Id. at 556. This extended the period of incarceration
one or two days past the prisoners’ release dates. Id.
The plaintiffs alleged that the County delayed their release during these checks, in violation of their civil
rights. Id. The LASD argued that because it was an
arm of the state, it was not a “person” that could be
liable for damages under § 1983. Id. at 557.
We looked at the LASD’s performance of the particular function at issue—implementing the prerelease policy—not the LASD’s general function as a
sheriff ’s department. See id. at 567. We held that “conducting the AJIS checks is not a central government
function.” Id. (emphasis added). Thus, it appears from
Streit that we look to whether the County, in performing the particular function at issue, performs a central
government function. This fits with the Court’s statement in Chatham that the county there might have
been entitled to Eleventh Amendment immunity if it
were “acting as an arm of the State, as delineated by
this Court’s precedents, in operating [a] drawbridge.”
Chatham, 547 U.S. at 194 (emphasis added).
i.

A matter of statewide rather than
local or municipal concern

The in-home care of the elderly and disabled is a
matter of both statewide and local concern. Plaintiffs
are residents of California, and the IHSS program is a

16a
statewide program implemented through State legislation that provides care to hundreds of thousands of
California residents. But Plaintiffs are also, of course,
residents of Los Angeles County, and the County has
an interest in the program and the care provided in
Los Angeles.
ii. The extent to which the state exercises centralized governmental
control over the entity
Here we consider the extent to which the County,
in implementing the program, has “discretionary powers” and “substantial autonomy in carrying out [its]
duties.” Beentjes, 397 F.3d at 783.
The County may negotiate, implement, and pay for
pay raises. See Cal. Welf. & Inst. Code § 12306.1. The
County may also allow its providers to exceed the maximum number of hours that the CDSS has set. See id.
§ 12300.4(d)(3). Thus, the County has discretion to
make some important choices on its own.
But the County contends—and Plaintiffs do not
dispute—that it has no discretion over the action (or
inaction) that subjected it to potential liability here:
payment of overtime wages under the FLSA. In taking
the actions that have subjected it to potential liability,
the County had neither “discretionary powers” nor
“substantial autonomy” in carrying out its duties.
We think this clearly tips the scales in the
County’s favor as to this factor. The County had no

17a
choice in the matter of the overtime wages, as the State
mandated the payment start date. We therefore hold
that the second Mitchell factor favors Eleventh
Amendment immunity.
c. Third, fourth, and fifth Mitchell factors
The County does not dispute that it can sue and
be sued (third Mitchell factor), that it has the power to
take property in its own name (fourth Mitchell factor),
or that it has an independent corporate status7 separate from the State (fifth Mitchell factor). Thus, these
three Mitchell factors weigh against Eleventh Amendment immunity.
*

*

*

In sum, the first Mitchell factor is the most important, and it weighs against Eleventh Amendment
immunity. So do the third, fourth, and fifth Mitchell
factors. Only the second factor favors immunity. We
therefore hold that, under Mitchell, the County is not
an arm of the State when it administers the IHSS

7

The fifth Mitchell factor asks whether the entity has “independent corporate status,” Holz v. Nenana City Pub. Sch. Dist.,
347 F.3d 1176, 1188 (9th Cir. 2003), or is, instead, merely an
agency of the state without an identity that is separate from the
state, Beentjes, 397 F.3d at 785. Here the County does not dispute
its independent corporate status, as the Supreme Court has already held that California counties have independent corporate
status and are not agents of the State of California. See Moor v.
Alameda Cty., 411 U.S. 693, 719 (1973).

18a
program, and thus it has no Eleventh Amendment immunity barring this action.
2. The Supreme Court has not overruled or
undermined Mitchell.
The County argues that we should overrule Mitchell because a later Supreme Court case, Hess v. Port
Authority Trans-Hudson Corporation, 513 U.S. 30
(1994), undermined it. As a three-judge panel, if we
find that intervening Supreme Court authority is
clearly irreconcilable with our own precedent, we must
consider ourselves bound by the intervening higher authority and consider our precedent effectively overruled. See Miller v. Gammie, 335 F.3d 889, 900 (9th Cir.
2003). Because Hess is not clearly irreconcilable with
Mitchell, we reject the County’s argument.
In Hess, the Court held that a Congressionally
approved bistate entity—the Port Authority TransHudson Corporation (PATH), created to improve coordination of the “terminal, transportation and other
facilities of commerce in, about and through the port of
New York”—did not have Eleventh Amendment immunity. 513 U.S. at 35, 52–53 (citation omitted). The
County argues that Hess established “indicators of immunity” that undermine the Mitchell test. We disagree.
The Hess Court noted that “current Eleventh
Amendment jurisprudence emphasizes the integrity
retained by each State in our federal system.” Id. at 39.
The Court then emphasized the difference between
PATH and the States of the Union: “The States, as

19a
separate sovereigns, are the constituent elements of
the Union. Bistate entities, in contrast, typically are
creations of three discrete sovereigns: two States and
the Federal Government.” Id. at 40.
The Court stated that “[p]ointing away from Eleventh Amendment immunity, the States lack financial
responsibility” for the bistate entity. Id. at 45. Here,
California similarly lacks financial responsibility for
the County generally, but Plaintiffs allege that although California writes their checks, the County pays
a share of their wages and sets their hours of work.
In Hess, “indicators of immunity point[ed] in different directions.” Id. at 47. Perhaps they do here as
well. Los Angeles is not a constituent member of the
Union, but it acted at the direction of the State and had
no authority over the payments at issue. But when
faced with a different dichotomy in Hess, the Court emphasized that the most important factor was whether
judgments against PATH would be paid by the State:
“the vulnerability of the State’s purse [is] the most salient factor in Eleventh Amendment determinations.”
Id. at 48; see also id. at 48–49 (citing cases for the “prevailing view” that the state-treasury factor is “generally accorded . . . dispositive weight”); id. at 51 (stating
that “the Eleventh Amendment’s core concern is not

20a
implicated” if the State is not “in fact obligated to bear
and pay the . . . indebtedness of the enterprise”).8
After noting that the bistate entity “was financially self-sufficient,” generated “its own revenues,”
and paid “its own debts,” the Court held that “[r]equiring the [bistate entity] to answer in federal court to injured railroad workers who assert a federal statutory
right, under the FELA, to recover damages does not
touch the concerns—the States’ solvency and dignity—
that underpin the Eleventh Amendment.” Id. at 52.
The same is true here. Mitchell and Hess both emphasize the state-treasury factor. Hess thus fully supports
and does not undermine Mitchell.9
The County argues that Hess emphasized the
amount of control that a state maintains over an entity,
a factor supposedly not mentioned in Mitchell and one
that, according to the County, favors Eleventh
8

The dissent read the holding even more broadly:
In place of the various factors recognized in Lake Country Estates, Inc. v. Tahoe Regional Planning Agency,
440 U.S. 391, 99 S. Ct. 1171, 59 L.Ed.2d 401 (1979), for
determining arm-of-the-state status, we may now substitute a single overriding criterion, vulnerability of the
state treasury. If a State does not fund judgments
against an entity, that entity is not within the ambit of
the Eleventh Amendment, and suits in federal court
may proceed unimpeded.
Id. at 55 (O’Connor, J., dissenting).
9
Los Angeles makes a legitimate point about the unfairness
of the result here. But that unfairness springs from the State and
its implementing legislation, not the Eleventh Amendment. Los
Angeles must air its grievance, if at all, in Sacramento.

21a
Amendment immunity here. First, as we mentioned
above, the second Mitchell factor does include a “control” inquiry—it just doesn’t make that factor dispositive. In addition, Hess pointed out that “[g]auging
actual control . . . can be a ‘perilous inquiry,’ [and] ‘an
uncertain and unreliable exercise.’ ” 513 U.S. at 47
(quoting Note, 92 Colum. L. Rev. 1243, 1284 (1992)).
The Court therefore doubted not only the efficacy but
also the utility of a “control” analysis, and it did not
suggest that control was a favored, much less dispositive, factor in the Eleventh Amendment analysis.10
Hess clearly stated that “rendering control dispositive does not home in on the impetus for the Eleventh
Amendment: the prevention of federal-court judgments that must be paid out of a State’s treasury.” Id.
at 48. And, in specifically discussing the control factor,
the Court noted that even though “ ‘political subdivisions exist solely at the whim and behest of their
State,’ . . . cities and counties do not enjoy Eleventh
Amendment immunity.” Id. at 47 (quoting Port Auth.
Trans-Hudson Corp. v. Feeney, 495 U.S. 299, 313
(1990)).
10

The control discussed in Hess seems to have gone to overall
control over the entity, not just control within the context of the
particular function at issue: “PATH urges that we find good reason to classify the Port Authority as a state agency for Eleventh
Amendment purposes based on the control New York and New
Jersey wield over the Authority. . . . But ultimate control of every
state-created entity resides with the State, for the State may destroy or reshape any unit it creates.” Id. at 47. Thus, looking at
the State’s overall control over the County as a county would not
help the County’s position here.

22a
Finally, the County insists that Hess compels us to
consider the State’s dignity, a factor not mentioned in
Mitchell. Hess noted that the State’s “solvency and dignity . . . underpin the Eleventh Amendment.” 513 U.S.
at 52. That is undoubtedly true. But the State is no
longer a party to this action, and it will not be responsible for an adverse judgment against the County. Allowing this action against Los Angeles does not injure
California’s dignity.11
The Supreme Court decided Hess about five years
after we decided Mitchell. And although Hess arose in
a different context than Mitchell–Hess addressed a bistate entity, not a county—nothing in Hess so undermines Mitchell that we have the power to overrule it.
More importantly, even if we used Hess rather than
Mitchell to guide our analysis, we would reach the
same result.
When a non-state entity invokes Eleventh Amendment immunity, the most important factor for determining whether the entity is an arm of the state
remains the state-treasury factor—that is, whether
the state will be liable for a money judgment against
the non-state entity. That factor, and all but one of the
other Mitchell factors, dictates the result here. The

11

And, although it would not have altered our analysis, we
note that California has not sought to file an amicus brief (below
or on appeal) arguing either that the County is entitled to Eleventh Amendment immunity or that this case threatens California’s dignity.

23a
Eleventh Amendment does not bar Plaintiffs’ suit
against Los Angeles.
B. The effective date of the rule is January 1,
2015.
We next consider whether the effective date of the
rule is the original effective date of January 1, 2015 or
some date after the D.C. Circuit reversed the district
court’s vacatur. The County argues that the rule cannot have an effective date that is earlier than the date
on which the D.C. Circuit reversed the district court’s
vacatur. Plaintiffs argue that the legal effect of the vacatur is to reinstate the original January 1, 2015 effective date. We agree with Plaintiffs and hold that the
effective date of the rule is January 1, 2015.
1. A January 1, 2015 effective date is not
impermissibly retroactive.
The County argues that a January 1, 2015 effective date is impermissibly retroactive. Plaintiffs argue
that the D.C. Circuit’s decision, not the rule, applies
retroactively, because the D.C. Circuit was “explaining
what the law always was,” and thus reinstating the
original effective date is merely a return to the status
quo ante.
When an appellate court applies “a rule of federal
law to the parties before it,” that interpretation “must
be given full retroactive effect in all cases still open on
direct review and as to all events, regardless of

24a
whether such events predate or postdate [the] announcement of the rule.” Harper v. Va. Dep’t of Taxation, 509 U.S. 86, 97 (1993). That is because “when a
court delivers a ruling, even if it is unforeseen, the law
has not changed. Rather, the court is explaining what
the law always was.” Jones Stevedoring Co. v. Dir., Office of Workers’ Comp. Programs, 133 F.3d 683, 688 (9th
Cir. 1997).
When the D.C. Circuit held that the DOL had the
rulemaking authority to promulgate the new rule and
that its new rule was a reasonable exercise of that authority, see Weil II, 799 F.3d at 1090, it did not change
the law but merely explained what the law always
was—the district court’s erroneous contrary holding
notwithstanding.
Two cases support our holding. In GTE South, Inc.
v. Morrison, 199 F.3d 733, 738, 740 (4th Cir. 1999), the
Fourth Circuit addressed an issue much like the one
we face: determining the effective date of certain pricing rules, promulgated by the FCC, that the Eighth
Circuit stayed and then vacated before their effective
date. The Supreme Court later reversed the Eighth
Circuit. See AT & T Corp. v. Iowa Utilities Bd., 525 U.S.
366, 385 (1999). The Morrison panel held that “the Supreme Court’s determination that the FCC has jurisdiction to issue pricing rules would appear to compel
the conclusion that the FCC always had such jurisdiction and that the rules apply as of the effective date
originally scheduled.” 199 F.3d at 740 (emphasis
added). The Fourth Circuit emphasized that its holding was not unfair to the parties who argued for a later

25a
effective date because they had “ample notice” of the
original effective date and “surely knew that the FCC’s
authority to issue pricing rules might ultimately be upheld by the Supreme Court.” Id. at 741.
In US West Communication, Inc. v. Jennings, 304
F.3d 950, 955 (9th Cir. 2002), we considered a similar
question: whether the regulations that the Fourth Circuit considered in Morrison applied to conduct that occurred during the period of vacatur. Finding the Fourth
Circuit’s reasoning in Morrison persuasive and applicable, we noted that the Supreme Court’s determination that the regulations were valid meant that we
should apply them “to all . . . agreements arbitrated
under the Act, including agreements arbitrated before
the rules were reinstated.” Id. at 957 (emphasis added).
Relying on Morrison, we held that applying the reinstated regulations to conduct that occurred during the
period of vacatur would not give the regulations an impermissible retroactive effect. Id. at 958.
Morrison and Jennings are analogous to this case
because both involved determining how to apply rules
or regulations that were vacated but ultimately reinstated on appeal. Indeed, Morrison commented not
only on the retroactivity of the Supreme Court’s reversal but also on the effective date of the regulations,
holding that the intervening vacatur did not alter the
original effective date of the pricing rules. 199 F.3d at
740.
Thus, Morrison and Jennings guide our analysis
here. The D.C. Circuit’s holding that the DOL had the

26a
authority to promulgate the new rule and that the rule
was reasonable applies retroactively. As in Jennings,
the regulations apply as of the original effective date.
To hold otherwise could encourage dilatory appellate
litigation. If an erroneously vacated rule or regulation
were not effective until sometime after the mandate issued in a later appeal, then a party might drag out the
appellate process to avoid compliance for as long as
possible. Put differently, an erroneous vacatur cannot
postpone a rule’s effective date until an appellate court
corrects the error sometime in the future. And, as the
Fourth Circuit noted in Morrison, in a case like this
everyone knows that the lower court decision might be
reversed on appeal.
The State and its counties knew from October 13,
2013, when the DOL first announced its final rule, that
January 1, 2015 was the rule’s effective date. See Application of the Fair Labor Standards Act to Domestic
Service, 78 Fed. Reg. at 60,454. The State and its counties had a full fifteen months to comply with the final
rule—indeed the State initially said that it would comply with the original effective date, but it changed
course after the Weil I court vacated the rule. That decision may have been reasonable, but it created a monetary risk, as the State and its counties were well
aware that an appellate court might uphold the regulations on appeal.
The district court held that to apply the Weil II decision retroactively would be to “reinstate[ ] an earlier
and judicially vacated effective date and retroactively
creat[e] liability for violations of the reinstated

27a
regulations as if the District Court’s vacation of the
regulations had never occurred.” That is exactly correct. And although the district court found that to be
unfair, it would be equally unfair to hold that a putative collective of homecare providers is not entitled to
nearly a year’s worth of overtime wages just because a
single district court issued an erroneous decision that
another court reversed on appeal. The State gambled
that Weil I would be affirmed. The effect of that gamble
might be unfair to the County, but the County must
seek any recourse from the State. It is not fair for the
homecare providers to bear the financial consequences
of the State’s calculated risk.
2. The DOL’s decision not to enforce a new
rule does not obviate private rights of action.
According to the County, the DOL’s choice against
enforcing the rule until November 12, 2015 eliminated
the availability of private rights of action until that
date because a private right of action cannot precede
an agency’s enforcement of a rule or regulation. We disagree.
“An agency’s informal assurance that it will not
pursue enforcement cannot preclude a citizen’s suit to
do so.” Ohio Valley Envtl. Coal. v. Fola Coal Co., LLC,
845 F.3d 133, 145 (4th Cir. 2017) (emphasis added).
Congress created a private right of action under the
FLSA for unpaid overtime: “Any employer who violates
the provisions of section 206 or section 207 of this title

28a
shall be liable to the employee or employees affected in
the amount of their . . . unpaid overtime compensation. . . .” 29 U.S.C. § 216(b). An agency’s discretionary
decision to hold off enforcement does not and cannot
strip private parties of their rights to do so. See Ohio
Valley, 845 F.3d at 145 (“Congress enacted the citizen
suit provision of the Clean Water Act to address situations, like the one at hand, in which the traditional enforcement agency declines to act.”).
The district court’s hypothesis that the D.C. Circuit and DOL “intended” that the regulation become
effective “no earlier than November 12, 2015” is tenuous and, in any event, irrelevant. First, the D.C. Circuit
said nothing at all on the issue. Second, there is nothing in the several statements of the DOL, which the
district court relied on, that suggest that it intended
its discretionary enforcement choices to preclude private enforcement. Indeed, other than by amending the
rule, the DOL could not have precluded private enforcement even if it wanted to.
The rule’s original effective date remains January
1, 2015. If the DOL “intended” for the effective date be
something other than January 1, 2015, the DOL could
have sought to change that effective date through the
procedures set out in the Administrative Procedure
Act. Were we to hold to the contrary and impose our
view that the DOL’s exercise of discretion amended the
effective date sub silentio, we would in fact be usurping
the rulemaking authority of the DOL. See Nat. Res. Def.
Council, Inc. v. U.S. E.P.A., 683 F.2d 752, 762 (3d Cir.
1982) (holding that a final rule’s effective date is an

29a
“essential part” of that rule and is thus subject to the
rulemaking procedures of the APA).
The effective date of the rule is January 1, 2015.12
CONCLUSION
We AFFIRM the district court’s holding that the
County is not entitled to Eleventh Amendment immunity and REVERSE the district court’s holding
that the putative collective period began on November
12, 2015, holding instead that the rule’s effective
date—and thus the beginning of the putative collective
period—is January 1, 2015. We REMAND for proceedings consistent with this opinion. Costs shall be
awarded to Plaintiffs-Appellants.

12
Although some district courts have reached a different conclusion—see, e.g., Bangoy v. Total Homecare Solutions, LLC, No.
1:15-CV-573, 2015 WL 12672727, at *3 (S.D. Ohio Dec. 21, 2015)
(holding that the plaintiffs failed to state a claim for a violation of
the FLSA between January 1, 2015 and “late August 2015”)—
nearly all of them have reached the same result we reach here,
see, e.g., Kinkead v. Humana, Inc., 206 F. Supp. 3d 751, 752 (D.
Conn. 2016) (holding that the effective date of the rule is January
1, 2015, “the effective date set forth by the agency”); Collins v.
DKL Ventures, LLC, 215 F. Supp. 3d 1059 (D. Colo. 2016) (same);
Lewis-Ramsey v. Evangelical Lutheran Good Samaritan Soc’y,
215 F. Supp. 3d 805 (S.D. Iowa 2016) (same).

30a
UNITED STATES DISTRICT COURT CENTRAL
DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. CV 17-4239 PA (SKx) Date September 28, 2017
Title

Trina Ray, et al. v. California Dep’t of
Soc. Servs., et al.

================================================================

Present: The PERCY ANDERSON, UNITED
Honorable
STATES DISTRICT JUDGE
Kamilla Sali-Suleyman
Deputy Clerk

Not Reported
Court Reporter

N/A
Tape No.
Attorneys Present
for Plaintiffs:
None

Attorneys Present
for Defendants:
None

Proceedings: IN CHAMBERS - COURT ORDER
Before the Court is a Motion to Dismiss filed by
defendant County of Los Angeles (the “County”) (erroneously sued as the Los Angeles County Department
of Public Social Services) (Docket No. 53). Also before
the Court is a Motion for Conditional Certification filed
by plaintiffs Trina Ray and Sasha Walker (“Plaintiffs”)
(Docket No. 27). Pursuant to Rule 78 of the Federal
Rules of Civil Procedure and Local Rule 7-15, the Court
finds that these matters are appropriate for decision
without oral argument. The hearings calendared for

31a
July 31, 2017 and September 11, 2017, are vacated,
and the matters taken off calendar.
I.

Factual and Procedural Background

Plaintiff Trina Ray commenced this action on June
7, 2017. In her original Complaint, Ms. Ray asserted a
claim for unpaid overtime under the Fair Labor Standards Act “(“FLSA”) on behalf of herself and a putative
collective of In-Home Supportive Services (“IHSS”)
providers against the California Department of Social
Services (“DSS”) and the County. Plaintiffs filed the
First Amended Complaint (“FAC”) on July 21, 2017.
The FAC dropped DSS as a defendant and added Ms.
Walker as a named plaintiff. The FAC seeks to represent an FLSA collective of “all persons who have been
employed by [the County] as IHSS Homecare Providers in the County of Los Angeles, and who were paid
for hours in excess of forty (40) per week at a rate of
less than 1.5 times their regular rate at any time from
January 1, 2015 to February 1, 2016.” (FAC ¶ 2.) There
are approximately 169,246 IHSS providers in the
County. (Docket No. 31 at 4:22-23.)
A. IHSS Program
“ ‘IHSS is a state social welfare program designed
to avoid institutionalization of incapacitated persons.
It provides supportive services to aged, blind, or disabled persons who cannot perform the services themselves and who cannot safely remain in their homes
unless the services are provided to them. The program

32a
compensates persons who provide the services to a
qualifying incapacitated person.’ ” Guerrero v. Superior
Court, 213 Cal. App. 4th 912, 920, 153 Cal. Rptr. 3d 315,
321 (2013) (quoting Basden v. Wagner, 181 Cal. App.
4th 929, 931, 104 Cal. Rptr. 3d 394, 395 (2010)). The
state “intends that necessary in-home supportive services shall be provided in a uniform manner in every
county based on individual need. . . .” Cal. Welf. & Inst.
Code § 12301(a). The California Court of Appeal has
described the IHSS program:
The Department [the state Department of Social Services or DSS] promulgates regulations
that implement the program, and county welfare departments administer the program under the Department’s supervision. Counties
process applications for IHSS, determine the
individual’s eligibility and needs, and authorize services. The county either obtains and
pays the provider of the services, or it pays the
recipient who hires a provider.
...
The services that may be authorized through
IHSS are specified in the DSS Manual sections 30-757.11 through 30-757.19. (DSS
Manual, § 30-757.1.) The Department must
adopt regulations establishing a uniform
range of services available to all eligible recipients based up individual needs, subject to
county plans developed in conformity with
state law. ([Cal. Welf. & Inst. Code] §§ 12301.1,
12302.) Counties evaluate the recipients
based on those regulations and reassess

33a
periodically, but at least annually. (§ 12301.1)
The Department, in consultation with the
counties, must also “establish and implement
statewide hourly task guidelines” and a
standardized tool to assess recipient needs.
(§§ 12301.2, 12309.)
Although County may authorize exceptions to
the hourly task time guidelines for particular
services based on factors set forth in the DSS
Manual (see DSS Manual, § 30-757.1), no exception may result in the recipient’s total
hours exceeding the maximum monthly limits
specified. (Id., § 30-757.1(a)(4).)
...
Counties are tasked with performing “quality
assurance activities,” including establishing a
dedicated, specialized unit or function to ensure quality assurance and program integrity,
including fraud detection and prevention in
the provision of services; performing routine
reviews of supportive case services to ensure
there are accurate assessments of needs and
hours; developing, with the state, policies, procedures, timelines, and instructions under
which counties will receive, resolve and respond appropriately to claims data match discrepancies or other information that indicates
potential overpayments to providers or recipients or third-party liability; monitoring the
delivery of supportive services to detect and
prevent potential fraud by providers, recipients and others to maximize recovery of overpayments. (§ 12305.71, subds.(a), (b), (c).)

34a
Such monitoring may include unannounced
home visits to a recipient’s home to verify the
receipt of services. (§ 12305.71, subd. (c)(3)(A),
(B).)
Guerrero, 213 Cal. App. 4th at 920-22, 153 Cal. Rptr.
3d at 321-23 (some citations omitted). “ ‘The program
was originated, and is largely funded, by the federal
government. A state may participate in the program by
paying a portion of the funding and complying with
federal requirements. California participates in the
IHSS program pursuant to . . . section 12300 et seq.
The county administers the program locally on behalf
of the state in accordance with the statute and state
regulations establishing a uniform range of services
available to all eligible recipients. County social workers interview applicants for IHSS services and determine their eligibility and need for such services and
the number of hours of service to which the applicant
is entitled under the regulations.’ ” Id. at 920 n.3, 153
Cal. Rptr. 3d at 321 n.3 (quoting Service Emps. Int’l
Union v. County of Los Angeles, 225 Cal. App. 3d 761,
765, 275 Cal. Rptr. 508, 510 (1990)).
The IHSS program is paid for through a combination of federal, state, and county funds:
[T]he IHSS program is primarily delivered as
a Medi-Cal benefit. Accordingly, around 50
percent of IHSS program costs are paid for by
the federal government. The nonfederal costs
of the IHSS program are shared by the state
and counties. Historically, the state paid for 65
percent of nonfederal program costs and

35a
counties paid for the remaining 35 percent.
There are some IHSS costs that are not
shared according to the historical statecounty cost-sharing arrangement. For example, pursuant to state law, the state only participates in funding IHSS provider wages and
benefits up to $12.10 per hour, placing the responsibility on counties to fund 100 percent of
the nonfederal costs of IHSS provider wages
and benefits above $12.10 per hour.
(Docket No. 54, Ex. 1 at 13-14.1) Based on “Maintenance of Effort” legislation that capped a county’s
share of nonfederal IHSS expenses, the share of county
costs fell from 35% in 2012 to 24% in 2016. (Id. at 20.)
As a result of new budget legislation enacted by the
State of California (the “State” or “California”), the
county share of IHSS costs is expected to increase to
36% during the 2017-18 budget year, with the state
share falling to 64%. (Id.; see also Cal. Welf. & Inst.
Code § 12306.16.) IHSS providers such as Plaintiffs
and the collective they seek to represent receive
paychecks issued by the California State Controller.
(FAC ¶ 18; Cal. Welf. & Inst. Code § 12300.4.) DSS processes payroll through a statewide computer system it
operates. Cal. Welf. & Inst. Code § 12317. Counties may
increase IHSS provider wages, but when they do so,
“the county shall use county-only funds to fund both
the county share and the state share, including employment taxes, of any increase in the cost of the program, unless otherwise provided for in the annual
1

Plaintiffs have not objected to the County’s Request for Judicial Notice.

36a
Budget Act or appropriated by statute.” Cal. Welf. &
Inst. Code § 12306.1.
B. FLSA Overtime Rules
The FLSA generally requires employers to pay
overtime at a rate of at least 150% of regular pay to
their employees whenever the employees work more
than 40 hours in a week. 29 U.S.C. § 207(a)(1). The
FLSA does, however, contain exemptions from the
overtime requirements. 29 U.S.C. § 213. In 1974, Congress added a “companionship exemption” for employees employed in “domestic service employment to
provide companionship services for individuals who
(because of age or infirmity) are unable to care for
themselves.” 29 U.S.C. § 213(a)(15). In October 2013,
the federal Department of Labor (“DOL”) promulgated
new regulations that changed the definition of “companionship services.” See 29 C.F.R. §§ 552.6 & 552.109.
By changing the definition of “companionship services,” the new regulations limited the scope of the exemption provided by 29 U.S.C. § 213(a)(15) and made
many IHSS providers, including Plaintiffs and the
members of the collective they seek to represent, eligible for overtime pay under the FLSA beginning on January 1, 2015. 78 Fed. Reg. 60454-01.
In Home Care Ass’n of America v. Weil, 76 F. Supp.
3d 138 (D.D.C. 2014), a group of IHSS employers challenged DOL’s enactment of the amended regulations.
The United States District Court for the District of
Columbia concluded that the DOL’s revised

37a
“companionship services” regulations were inconsistent with the intent of Congress and the language
of the FLSA. On December 31, 2014, the District Court
in Weil temporarily stayed the regulations from going
into effect. (Docket No. 54, Ex. 14.) The District Court,
on January 14, 2015, vacated the regulations. Home
Care Ass’n of America v. Weil, 78 F. Supp. 3d 123
(D.D.C. 2015). As a result of the District Court’s actions, California’s DSS issued an “All-County Letter”
(“ACL”) on January 5, 2015, advising California’s counties that “implementation of the new FLSA regulations
. . . will be delayed until further court clarification.”
(Docket No. 54, Ex. 5.) DSS advised the counties that
the payroll system it operates for IHSS providers “will
not process payments for overtime or travel time until
further clarification is ascertained based on the court
decisions.” (Id.)
DOL appealed the District Court’s order vacating
the regulations. The United States Court of Appeals for
the District of Columbia reversed the District Court’s
invalidation of the regulations on August 21, 2015.
Home Care Ass’n of America v. Weil, 799 F.3d 1084
(D.C. Cir. 2015). The D.C. Circuit remanded the action
to the District Court with instructions to enter summary judgment in favor of DOL. Id. at 1093. The Court
of Appeals issued its mandate on October 13, 2015. In
granting DOL’s request for expedited issuance of the
mandate, the D.C. Circuit concluded that the “mandate
should be issued expeditiously so that the final rule
can be implemented,” noted that the DOL “indicated
that, through December 31, 2015, it will exercise

38a
prosecutorial discretion in determining whether to
bring enforcement actions, with particular consideration given to the extent to which States and other entities have made good faith efforts to bring their home
care programs into compliance with the FLSA since
promulgation of the final regulations,” and that DOL
“will not bring enforcement actions against any employer as to violations of FLSA obligations resulting
from the amended regulations until 30 days after the
mandate issues.” (Docket No. 54, Ex. 16.) Consistent
with the representations it had made to the D.C. Circuit to obtain expedited issuance of the mandate, DOL
issued a policy statement on October 27, 2015, confirming that it would not bring enforcement actions against
any employer for FLSA violations of the amendments
to the companionship services regulations for 30 days
after the D.C. Circuit issued its mandate. 80 Fed. Reg.
65646-01. DOL stated that its non-enforcement period
would conclude on November 12, 2015, and that it
would, as a matter of prosecutorial discretion, extend
its period of nonenforcement through December 31,
2015. Id. California’s DSS issued a statement on November 4, 2015, providing that it would start paying
overtime wages beginning on February 1, 2016.
(Docket No. 54, Ex. 17.) DSS issued an ACL on December 1, 2015, notifying “counties of the responsibility to
implement the overtime and travel compensation requirements effective February 1, 2016.” (Docket No. 54,
Ex. 7.)

39a
II.

Analysis

In its Motion to Dismiss, the County asserts that
it is entitled to sovereign immunity under the Eleventh Amendment as an arm of the state when it performs its statutory roll in the IHSS program. The
County alternatively contends that this action should
be dismissed because California is a necessary and indispensable party that cannot be joined as a result of
its Eleventh Amendment immunity. The County also
challenges the sufficiency of the FAC by arguing that
Plaintiffs have not alleged with sufficient detail specific workweeks in which they did not receive overtime
pay as required by Landers v. Quality Commc’ns, Inc.,
771 F.3d 638 (9th Cir. 2014).2 In both the County’s Motion to Dismiss and Plaintiffs’ Motion for Conditional
Certification, the parties dispute when the amendments to the companionship services exemption regulations became effective and entitled Plaintiffs and the
putative collective to overtime wages. Plaintiffs seek a
collective period beginning on January 1, 2015, when
the regulations were originally scheduled to take effect. The County contends that the collective period
could not begin any earlier than October 13, 2015,
when the D.C. Circuit issued its mandate in Weil, and
may not have started until November 12, 2015, or later,
when DOL could begin to enforce the regulations.3
2

The Court concludes that the FAC alleges sufficient facts to
satisfy Landers. (See FAC ¶ 24.) The Court therefore denies the
County’s Motion to Dismiss for failure to state a claim.
3
Because Ms. Ray worked as an IHSS provider from 2010 or
2011 “until approximately October 2015,” and then again

40a
A. Eleventh Amendment Immunity
The Eleventh Amendment of the United States
Constitution provides that “[t]he Judicial power of the
United States shall not be construed to extend to any
suit in law or equity, commenced or prosecuted against
one of the United States by Citizens of another State,
or by Citizens or Subjects of any Foreign State.” U.S.
Const. amend. XI. “The ultimate guarantee of the Eleventh Amendment is that nonconsenting States may
not be sued by private individuals in federal court.”
Board of Trs. of Univ. of Ala. v. Garrett, 531 U.S. 356,
363, 121 S.Ct. 955, 962 (2001). The Supreme Court has
“ ‘consistently refused to construe the Amendment to
afford protection to political subdivisions such as counties and municipalities, even though such entities exercise a slice of state power.’ ” Beentjes v. Placer County
Air Pollution Control Dist., 397 F.3d 775, 777 (9th Cir.
2005) (quoting Lake Country Estates, Inc. v. Tahoe
Reg’l Planning Agency, 440 U.S. 391, 401, 99 S. Ct.
1171, 1177 (1979)). The Supreme Court has also specifically concluded that California’s counties are not entitled to Eleventh Amendment immunity. See Moor v.
beginning in September or October 2016 (FAC ¶ 5), the County
challenges her standing to assert a claim because, if the FLSA
regulations were not in effect until October or November 2015,
she would have no entitlement to overtime wages. Because Ms.
Walker has worked as an IHSS provider from 2006 to the present
(FAC ¶ 7), she has standing no matter when the FLSA regulations became effective. Because at least one of the named plaintiffs has standing to pursue the claims alleged in the FAC
regardless of the effective date of the FLSA regulations at issue,
the Court declines to address the County’s standing argument in
this order.

41a
Alameda County, 411 U.S. 693, 719, 93 S. Ct. 1785,
1800-01 (1973) (“[A] detailed examination of the relevant provisions of California law . . . convinces us that
the County cannot be deemed a mere agent of the State
of California.”).
Despite this Supreme Court and Ninth Circuit
precedent establishing that California’s counties may
not assert Eleventh Amendment immunity, the County
contends that it should be considered an “arm of the
state” because the “particular function” performed by
the County in administering the IHSS program is pursuant to California statutory authority and the County
had no authority to pay overtime to IHSS providers
without the State’s consent. (See Docket No. 53 at 12:520 & Docket No. 60 at 3:3-18.) The County therefore
contends that it should be entitled to Eleventh Amendment immunity under the Ninth Circuit’s test for determining if an entity is an arm of the state. See
Beentjes, 397 F.3d at 778 (“In the Ninth Circuit, we
employ a five-factor test to determine whether an entity is an arm of the state: (1) whether a money judgment would be satisfied out of state funds, (2) whether
the entity performs central governmental functions,
(3) whether the entity may sue or be sued, (4) whether
the entity has the power to take property in its own
name or only the name of the state, and (5) the corporate status of the entity.” (quoting Belanger v. Madera
Unified Sch. Dist., 963 F.3d 248, 250-51 (9th Cir. 1992));
see also Mitchell v. Los Angeles Cmty. Coll. Dist., 861
F.2d 198, 201 (9th Cir. 1988).

42a
Other than the extent to which a “particular function” performed by an entity might be assessed as part
of the second Mitchell factor in determining if an entity
is entitled to Eleventh Amendment immunity, the
Ninth Circuit does not appear to have adopted the
“particular function” analysis to a county’s assertion of
immunity. The closest the Ninth Circuit appears to
have come to analyzing a particular function is when
it assessed if the Los Angeles Sheriff ’s Department
was acting as an arm of the state “when administering
the local county jails.” Streit v. County of Los Angeles,
236 F.3d 552, 566-67 (9th Cir. 2001). Streit treated the
Sheriff ’s Department as a “separately suable entity”
from the County when it determined that the Sheriff ’s
Department was not entitled to Eleventh Amendment
immunity when administering the local jails. Id. A focus on the particular function undertaken by the
County appears to be inconsistent with both the binding precedent from the Supreme Court and Ninth Circuit holding that California’s counties are not entitled
to Eleventh Amendment immunity and the Supreme
Court’s description of its jurisprudence in the area that
its “cases have inquired into the relationship between
the State and the entity in question” and that in “making this inquiry, we have sometimes examined ‘the essential nature and effect of the proceeding’ and
sometimes focused on the ‘nature of the entity created
by state law’ to determine whether it should ‘be treated
as an arm of the State.’ ” Regents of the Univ. of Cal. v.
Doe, 519 U.S. 425, 429-30, 117 S. Ct. 900, 904 (1997)
(citations omitted). The Supreme Court has already
looked at the “nature of the entity created by state law”

43a
and concluded that California’s counties are not “arms
of the State.” Moor, 411 U.S. at 719, 93 S. Ct. at 180001.
Even if the Court were not bound by the precedent
declaring that California’s counties are not entitled to
Eleventh Amendment immunity, and could assess the
Mitchell factors in light of the facts presented in this
action, it would conclude that the County is not an
“arm of the state” for purposes of its involvement in the
IHSS program. First, although the County presents
substantial evidence that a large portion of the nonfederal IHSS funds are contributed by the State rather
than the County, the State’s contribution of those funds
does not establish that a money judgment against the
County in this case would be paid with State rather
than County funds. In its Reply, the County argues for
the first time that California Government Code sections 895.2 and 895.6 would impose upon the State an
obligation to contribute a pro rata share of any judgment. But sections 895.2 and 895.6 of the California
Government Code only apply to “public entities that
are parties to an agreement.” Cal. Gov’t Code § 895.6.
Here, the County has not submitted any evidence that
its involvement in the IHSS program is subject to an
“agreement” as contemplated by these provisions of the
California Government Code. Instead, the relationship
between the County and State appears to be dictated
by the statutory scheme created by sections 12300
through 12317.2 of the California Welfare and Institutions Code and regulations promulgated pursuant to
that statutory authority. The County therefore has not

44a
established that a “money judgment would be satisfied
out of state funds.” Beentjes, 397 F.3d at 778. Because
this factor is “the predominant factor,” the County’s
failure to show that State funds would be used to satisfy a judgment “is given additional weight.” Id. The
County also does not dispute that it has the power to
take property in its own name, to sue or be sued, and
that it has a corporate status separate from the State.
The third through fifth Mitchell factors therefore
weigh against a finding that the County is an arm of
the state.
Only the second Mitchell factor weighs at all in favor of extending Eleventh Amendment immunity to
the County for its involvement in the IHSS program.
“In assessing the second Mitchell factor—whether the
entity performs a central governmental function—we
evaluate whether the [County] addresses ‘a matter of
statewide rather than local or municipal concern,’ and
‘the extent to which the state exercises centralized governmental control over the entity.’ ” Id. at 782 (quoting
Belanger, 963 F.2d 253 and Savage v. Glendale Union
High Sch., 343 F.3d 1036, 1044 (9th Cir. 2003)). The
California Welfare and Institutions Code states the
California Legislature’s intent “that necessary inhome supportive services shall be provided in a uniform manner in every county based on individual need
consistent with this chapter.” Cal. Welf. & Inst. Code
§ 12301(a). To further this goal, DSS is required to
“adopt regulations establishing a uniform range of services available to all eligible recipients based upon individual needs.” Cal. Welf. & Inst. Code § 12301.1(a).

45a
But within this framework of State oversight, counties
are allowed at least some discretion in how they operate their local IHSS programs. See Cal. Welf. & Inst.
Code § 12302 (involving creation of county plans for
the provision of IHSS services within the counties).
While the Court is sympathetic to the apparent inequity of making the County liable for overtime payments that the State directed that the counties not
provide until February 1, 2016, through a payroll system controlled and administered by the State, that inequity does not overcome the four other Mitchell
factors that weigh in favor of denying Eleventh
Amendment immunity to the County arising out of its
role, with the State, as a joint employer of IHSS providers. See Bonnette v. Cal. Health & Welfare Agency,
704 F.2d 1465, 1470 (9th Cir. 1983) (citations omitted),
disapproved on other grounds by Garcia v. San Antonio
Metro. Transit Auth., 469 U.S. 528, 105 S. Ct. 1005
(1985) (concluding that the State and counties were
“joint employers” of IHSS providers under the FLSA);
see also Guerrero, 213 Cal. App. 4th at 929-30, 153 Cal.
Rptr. 3d at 328-29. The Court therefore concludes that
the County is not entitled to Eleventh Amendment immunity.
B. Joinder of the State of California as a
Necessary and Indispensable Party
The County alternatively contends that this action
should be dismissed pursuant to Federal Rule of Civil
Procedure 12(b)(7) because the State is a necessary

46a
party that cannot be joined in this action without violating its Eleventh Amendment immunity. Rule 19
“prescribes a bifurcated analysis to determine whether
parties should or must be joined.” Takeda v. Northwestern Nat’l Life Ins. Co., 765 F.2d 815, 819 (9th Cir. 1985).
“First, a court must determine whether an absent
party should be joined as a ‘necessary party’ under subsection (a). Second, if the court concludes that the nonparty is necessary and cannot be joined for practical or
jurisdictional reasons, it must then determine under
subsection (b) whether in ‘equity and good conscience’
the action should be dismissed because the nonparty is
‘indispensable.’ ” Virginia Sur. Co. v. Northrop Grumman Corp., 144 F.3d 1243, 1247 (9th Cir. 1998). A party
is “necessary” under Rule 19(a)(1) if:
(A) in that person’s absence, the court cannot
accord complete relief among existing
parties; or
(B) that person claims an interest relating to
the subject of the action and is so situated
that disposing of the action in the person’s absence may:
(i)

as a practical matter impair or impede the person’s ability to protect
the interest; or

(ii) leave an existing party subject to a
substantial risk of incurring double,
multiple, or otherwise inconsistent
obligations because of the interest.

47a
Fed. R. Civ. P. 19(a)(1). Under Rule 19(b), “[i]f a person
who is required to be joined if feasible cannot be joined,
the court must determine whether, in equity and good
conscience, the action should proceed among the existing parties or should be dismissed.” Fed. R. Civ. P. 19(b).
In deciding whether to proceed with the action despite
the absence of a required party:
The factors for the court to consider include:
(1) the extent to which a judgment rendered
in the person’s absence might prejudice
that person or the existing parties;
(2) the extent to which any prejudice could be
lessened or avoided by:
(A) protective provisions in the judgment;
(B) shaping the relief; or
(C) other measures;
(3) whether a judgment rendered in the person’s absence would be adequate; and
(4) whether the plaintiff would have an adequate remedy if the action were dismissed for nonjoinder.
Fed. R. Civ. P. 19(b). Rule 19(b) “emphasizes practical
consequences and its application depends on the circumstances of each case.” Takeda, 765 F.2d at 819 (citing Provident Tradesmens Bank & Trust v. Patterson,
390 U.S. 102, 118-19, 88 S. Ct. 733, 742-43 (1968)).

48a
As the Court previously stated, the State and
County are “joint employers” of IHSS providers under
the FLSA. See Bonnette, 704 F.2d at 1470; see also
Guerrero, 213 Cal. App. 4th at 929-30, 153 Cal. Rptr.
3d at 328-29. “Two or more employers may jointly employ someone for purposes of the FLSA. All joint employers are individually liable for compliance with the
FLSA.” Bonnette, 704 F.2d at 1469; see also Maddock
v. KB Homes, Inc., 631 F. Supp. 2d 1226, 1232 (C.D.
Cal. 2007) (“Two or more employers may jointly employ
an employee and be individually liable under the
FLSA.”). The individual liability of joint employers is
“joint and several liability.” See Boucher v. Shaw, 572
F.3d 1087, 1094 (9th Cir. 2009) (citing with approval
Donovan v. Agnew, 712 F.2d 1509, 1514 (1st Cir. 1983)
for the proposition that “a corporate officer with operational control of a corporation’s covered enterprise is
an employer along with the corporation, jointly and
severally liable under the FLSA for unpaid wages.”);
see also Chao v. A-One Med. Servs., Inc., 346 F.3d 908,
917 (9th Cir. 2003) (citing with approval Moon v. Kwon,
248 F. Supp. 2d 201, 236-38 (S.D.N.Y. 2002) (applying
[29 C.F.R. §] 791.2(a) to find joint and several liability
for overtime wages from joint employers)). “It has long
been the rule that it is not necessary for all joint tortfeasors to be named as defendants in a single lawsuit.”
Temple v. Synthes Corp., 498 U.S. 5, 7, 113 S. Ct. 315,
316 (1990); see also Fed. R. Civ. P. 19 advisory committee’s note to 1966 amendment (“It should be noted particularly, however, that the description is not at
variance with the settled authorities holding that a
tortfeasor with the usual ‘joint-and-several’ liability is

49a
merely a permissive party to an action against another
with like liability.”).
Because the County and State are jointly and severally liable for FLSA violations arising out of their
status as joint employers of IHSS providers, the State
is a permissive rather than necessary party and, “because the threshold requirements of Rule 19(a) have
not been satisfied,” no “inquiry under Rule 19(b) is necessary.” Temple, 498 U.S. at 8, 111 S. Ct. at 316. The
Court therefore denies the County’s Motion to Dismiss
brought pursuant to Federal Rule of Civil Procedure
12(b)(7).
C. Effective Date of the FLSA Regulations
As the Court has already explained, DOL’s amendments to the regulations concerning the companionship exemption regulations were originally scheduled
to go into effect on January 1, 2015, but the District
Court for the District of Columbia vacated those regulations before their effective date. See Weil, 78 F. Supp.
3d 123. The D.C. Circuit reversed the District Court’s
order and remanded the action “for the entry of summary judgment in favor of ” DOL. Weil, 799 F.3d at
1097. In granting DOL’s Motion for Expedited Issuance
of the Mandate, which the D.C. Circuit granted on October 13, 2015, the D.C. Circuit acknowledged that
DOL had notified the Circuit that DOL “will not bring
enforcement actions against any employer as to violations of the FLSA obligations resulting from the
amended regulations until 30 days after the mandate

50a
issues.” (Docket No. 54, Ex. 16.) DOL issued a policy
statement on October 27, 2015, confirming that it
would not bring enforcement actions against any employer for FLSA violations of the amendments to the
companionship services regulations for 30 days after
the D.C. Circuit issued its mandate. 80 Fed. Reg.
65646-01.
Relying on Kinkead v. Humana, Inc., 206 F. Supp.
3d 751 (D. Conn. 2016), Plaintiffs contend that the D.C.
Circuit’s opinion reversing the District Court should
apply retroactively to allow enforcement of the applicable regulations beginning on the original effective
date of January 1, 2015. In adopting a January 1, 2015
effective date for the regulations, the Kinkead court relied on the Supreme Court’s retroactivity analysis in
Harper v. Virginia Dept. of Taxation, 509 U.S. 86, 113
S. Ct. 2510 (1993). See Kinkead, 206 F. Supp. 3d at 754
(“In light of the fact that the district court vacated the
new rule, it is not surprising that defendants refrained
from paying overtime to plaintiff while the district
court’s decision remained valid. But, of course, the district court ruling was promptly challenged in the D.C.
Circuit, and the real question here is whether the D.C.
Circuit’s subsequent reversal of the district court’s vacatur means that defendants became liable to pay
plaintiff overtime for the periods that she worked
while the district court’s decision had been in effect.
The answer to this question follows from the wellestablished rule that judicial decisions are presumptively retroactive in their effect and operation.”).

51a
In Harper, the Supreme Court held that a court’s
“application of a rule of federal law to the parties before the Court requires every court to give retroactive
effect to that decision.” Harper, 509 U.S. at 90, 113
S. Ct. at 2513. Specifically, the Supreme Court stated:
“When this Court applies a rule of law to the parties
before it, that rule is the controlling interpretation of
federal law and must be given full retroactive effect in
all cases still open on direct review and as to all events,
regardless of whether such events predate or postdate
our announcement of the rule.” Id. at 97, 113 S. Ct. at
2517. This Court declines to adopt the analysis in
Kinkead because it conflated the retroactive effect of
the rule of law announced by the D.C. Circuit’s opinion
in Weil—that DOL had the authority to amend the
FLSA regulations at issue and that the amendments
were reasonable and not arbitrary and capricious—
with the retroactive application of the amended regulations themselves. The rule of law announced by the
D.C. Circuit is given retroactive effect by allowing DOL
to reinstate those regulations without having to begin
a new rule-making process. That is not the same thing
as reinstating an earlier and judicially vacated effective date and retroactively creating liability for violations of the reinstated regulations as if the District
Court’s vacation of the regulations had never occurred.
Both the D.C. Circuit and DOL understood that
the Circuit’s ruling did not have the effect of retroactively establishing an effective date of January 1, 2015.
To the contrary, both the D.C. Circuit and DOL understood and intended for the regulation to become

52a
effective and enforceable no earlier than November 12,
2015, 30 days after the Circuit issued its mandate on
October 13, 2015. As the D.C. Circuit implied in its order expediting the issuance of its mandate, the delay
in enforcement that DOL indicated it would provide
following issuance of the mandate would allow employers a period of time to comply with the reinstated regulations. (Docket No. 54, Ex. 16 at 2-3.) Kinkead did
not address this compelling evidence of the intent of
both the D.C. Circuit and DOL. Indeed, to enforce an
effective date retroactively deprives employers, who
were acting in accordance with then-binding guidance
from the District Court of the District of Columbia, of
the ability to plan for the enforcement of the regulations through responsible budgeting and avoiding the
payment of overtime wages by adding workers or adjusting work schedules.
The procedural posture of Weil and the D.C. Circuit’s actions are similar to an appellate court’s reversal of a district court’s issuance of an injunction
enjoining the enforcement of a regulation. In such instances, the Ninth Circuit, like the D.C. Circuit did, has
announced an effective date of the reinstated regulations, but has not retroactively enforced the regulations. See Stormans, Inc. v. Selecky, 586 F.3d 1109, 1141
n.18 (9th Cir. 2009) (“The new rules . . . are effective as
of the filing date of this opinion, and, except to the extent that the district court, upon reconsideration in
light of this disposition, issues a preliminary injunction as to the named plaintiffs and their employers,
may be enforced in accordance with the law of the state

53a
of Washington.”). Concluding that the applicable regulations may be enforced by Plaintiffs and the putative
collective beginning no earlier than November 12,
2015, is also consistent with the general rule that a
private right of action should ordinarily not exist when
the applicable rule could not be enforced by the relevant enforcement agency. See Wilshire Westwood Assocs. v. Atlantic Richfield Corp., 881 F.2d 801, 810 (9th
Cir. 1989) (quoting Skidmore v. Swift & Co., 323 U.S.
134, 140, 65 S. Ct. 161, 164 (1944) (“Good administration of the Act and good judicial administration alike
require that the standards of public enforcement and
those for determining private rights shall be at variance only where justified by very good reasons.”)).
Here, based on the District Court’s vacation of the
regulation, the D.C. Circuit’s orders, and DOL’s announcement of a new effective date, DOL could not enforce the regulations until November 12, 2015. The
Court adopts this date as the appropriate date on
which the putative collective period could begin.4
While DOL also announced that it would exercise its
prosecutorial discretion not to enforce the reinstated
regulations through December 31, 2015, this discretionary action does not necessarily limit the private
4

At least one other Court has adopted November 12, 2015,
as the effective date of the regulations, although it did so for somewhat different reasons. See Bangoy v. Total Homecare Solutions,
LLC, 2015 WL 12672727, Case No. 1:15-CV-573 (S.D. Ohio Dec.
21, 2015). Other courts have adopted the October 13, 2015 date of
the issuance of the D.C. Circuit’s mandate as the effective date of
the regulations. A majority of courts, usually without engaging in
an analysis of their own, have followed Kinkead.

54a
enforcement rights of Plaintiffs and the putative collective. Because the putative collective began receiving
overtime wages on February 1, 2016, the putative collective period begins on November 12, 2015, and continues through January 31, 2016.
Conclusion
The Court concludes that the County is not an arm
of the state for Eleventh Amendment immunity purposes, that the State is not a necessary and indispensable party to this action, and that the FAC otherwise
states a viable claim for relief. The Court therefore denies the County’s Motion to Dismiss. The Court does,
however, reject Plaintiff ’s efforts to enforce the FLSA
companionship exemption regulations retroactively to
January 1, 2015. Instead, the Court concludes that the
putative collective period extends from November 12,
2015, through January 31, 2016.
The Court recognizes that the County could immediately appeal this Court’s denial of its Motion to Dismiss based on Eleventh Amendment immunity. See
Savage, 343 F.3d at 1040 (“[E]ntities that claim to be
arms of the State may use the collateral order doctrine
to appeal a district court order denying a claim of Eleventh Amendment immunity.”).5 To avoid the potential
wasted effort, costs, and issues involved in providing
5

Plaintiffs could have avoided this appellate issue and the
delay caused by such an appeal, by commencing this action in
state court. Pursuing this action in state court would also allow
Plaintiffs to pursue the claims they asserted against DSS in their
original Complaint but abandoned when they filed the FAC.

55a
notice to nearly 200,000 members of the collective, if
the County elects to appeal the Court’s denial of its
Motion to Dismiss, the Court will delay conditionally
certifying the collective until no earlier than October
18, 2017. Additionally, should the County appeal, the
Court would consider certifying, pursuant to 28 U.S.C.
§ 1292(b), an interlocutory appeal concerning the effective date of the applicable regulations because, as the
disagreement among the various district courts shows,
there appears to be a substantial ground for difference
of opinion concerning the effective date of the regulations, and establishing if the collective period runs for
13 months, two-and-a-half months, or one month, may
materially advance the ultimate termination of the litigation.
The Court orders the parties to meet and confer
regarding the possibility of the County’s collateral appeal and the advisability of an interlocutory appeal of
the Court’s adoption of a November 12, 2015 effective
date for the applicable regulations. The parties shall
also discuss an appropriate notice procedure should
the action proceed in this Court without an appeal, and
what, if any, tolling may apply to the claims of the
members of the putative collective based on the filing
date of the action and any delay caused by an appeal
of this Order. The parties shall file a Joint Report summarizing their views on these issues, and any proposals for providing notice to the putative collective, by
no later than October 11, 2017.
IT IS SO ORDERED.

56a
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
TRINA RAY, individually, and
on behalf of others similarly
situated,
Plaintiff-Appellee,

No. 17-56581
D.C. No.
2:17-cv-04239PA-SK

v.
COUNTY OF LOS ANGELES,
Defendant-Appellant.
TRINA RAY; SASHA WALKER,
individually, and on behalf
of all others similarly situated,
Plaintiffs-Appellants,

No. 18-55276
D.C. No.
2:17-cv-04239PA-SK

v.

ORDER

LOS ANGELES COUNTY DEPARTMENT OF PUBLIC SOCIAL SERVICES,
Erroneously Sued As County
of Los Angeles,
Defendant-Appellee.
Filed October 8, 2019.
Before: Kim McLane Wardlaw and Mark J. Bennett,
Circuit Judges, and Kathleen Cardone,*
District Judge.

* The Honorable Kathleen Cardone, United States District
Judge for the Western District of Texas, sitting by designation.

57a
ORDER
The opinion filed on August 22, 2019 is amended
as follows:
On page six of the opinion, in the paragraph beginning “As employers of the homecare providers,” replace <As employers of the homecare providers, the
State and County> with <Assuming, without deciding,
the State and County are employers of the homecare
providers, they>.
With this amendment, the panel votes to deny the
appellant’s petition for panel rehearing. [Dkt. 51]
Judges Wardlaw and Bennett vote to deny the appellant’s petition for rehearing en banc [DKT No. 51], and
Judge Cardone so recommends. The full court has been
advised of the petition for rehearing en banc, and no
active judge has requested a vote on whether to rehear
the matter en banc. Fed. R. App. P. 35. The petition for
panel rehearing and rehearing en banc is therefore
DENIED. No further petitions for panel or en banc rehearing shall be permitted.
IT IS SO ORDERED.

58a
Matthew C. Helland, CA SBN 250451
helland@nka.com
Daniel S. Brome, CA SBN 278915
dbrome@nka.com
NICHOLS KASTER, LLP
235 Montgomery St., Suite 810
San Francisco, CA 94104
Telephone: (415) 277-7235
Facsimile: (415) 277-7238
Attorneys for Plaintiffs and Others Similarly Situated
IN THE UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Trina Ray and Sasha
Walker, individually,
and on behalf of others
similarly situated,
Plaintiffs,
v.
California Department
of Social Services, and
Los Angeles County
Department of Public
Social Services,
Defendants.

Case No.
2:17-cv-04239-PA-SK
FIRST AMENDED
COLLECTIVE ACTION
COMPLAINT FOR
DAMAGES AND
RESTITUTION
(Filed Jul. 21, 2017)
(1) Failure to Pay Overtime Compensation in
Violation of the Fair
Labor Standards Act
(29 U.S.C. § 201, et seq.)

PRELIMINARY STATEMENT
1. This is a collective action brought by Individual Plaintiffs Trina Ray and Sasha Walker (“Plaintiffs”) on their own behalf and on behalf of the proposed

59a
FLSA Collective. Plaintiffs and the putative collective
are or were employed by the Los Angeles County Department of Public Social Services (“DPSS” or “Defendant”), as homecare workers, home care providers, or in
other similar job titles through the In-Home Supportive Services program (collectively, “IHSS Homecare
Providers”) and were denied proper compensation as
required by federal wage and hour laws. These employees are similarly situated under the Fair Labor Standards Act (“FLSA”), 29 U.S.C. § 216(b).
2. The FLSA Collective is made up of all persons
who have been employed by Defendant as IHSS Homecare Providers in the County of Los Angeles, and who
were paid for hours in excess of forty (40) per week at
a rate of less than 1.5 times their regular rate at any
time from January 1, 2015 to February 1, 2016 (the
“Collective Period”).
3. During the Collective Period, Defendant failed
to pay overtime compensation to Plaintiffs and each
member of the FLSA Collective as required by federal
law. Plaintiffs seek relief for themselves and for the
FLSA Collective under the FLSA requiring Defendant
to pay appropriate overtime compensation.
THE PARTIES
4. Plaintiff Trina Ray (“Plaintiff Ray”) is an individual residing in Los Angeles, California (Los Angeles
County).

60a
5. Plaintiff Ray is currently employed by Defendant as an IHSS Homecare Provider. She worked the
first of two stints of employment for Defendants from
approximately 2010 or 2011 until approximately October 2015. Defendant then re-hired Plaintiff in approximately September or October 2016 and have
employed her since. Throughout her employment with
Defendant, Plaintiff Ray has reported to the IHSS office located in Rancho Dominguez, California (Los Angeles County).
6. Plaintiff Sasha Walker (“Plaintiff Walker”) is
an individual residing in Los Angeles, California (Los
Angeles County).
7. Plaintiff Walker is currently employed by Defendant as an IHSS Homecare Provider, and has been
so employed since 2006. Throughout her employment
with Defendant, Plaintiff Walker has provided services
in Los Angeles County.
8. The In-Home Supportive Services (“IHSS”)
program provides in-home assistance to eligible aged,
blind, and disabled individuals as an alternative to
out-of-home care. IHSS currently serves over 550,000
recipients through over 460,000 homecare workers
(providers). Services covered by the IHSS program include domestic services (e.g. housework, meal preparation, laundry, running errands), non-medical care
services (such as bathing, dressing, bladder care);
transportation services (to medical appointments), and
paramedical services (necessary health care activities

61a
that recipients would normally perform for themselves
were it not for their functional limitations).
9. According to its website, the Los Angeles Department of Public Social Services (DPSS) is the second largest department in Los Angeles County and is
the largest social service agency in the United States.
DPSS is responsible for the administration and oversight of the IHSS program at the county level.
10. Defendant’s gross annual sales made or business done has been $500,000.00 or greater at all times
relevant herein. Defendant operates in interstate commerce by, among other things, receiving federal funding for the programs they administer.
JURISDICTION AND VENUE
11. This Court has subject matter jurisdiction
pursuant to 28 U.S.C. § 1331 as this case is brought
under the FLSA, 29 U.S.C. §§ 201 et seq. Plaintiffs Ray
and Walker have signed consent forms to join this lawsuit, which have previously been filed with the Court.
Other individuals have filed consent forms to join this
action, and as this case proceeds, it is likely that still
other individuals will file consent forms and join as
opt-in plaintiffs.
12. Venue is proper in the United States District
Court, Central District of California pursuant to 28
U.S.C. § 1391, because Defendant operates in this district and because a substantial part of the events giving rise to the claims occurred in this district.

62a
FACTUAL ALLEGATIONS
13. Plaintiffs re-allege and incorporate by reference the above paragraphs as if fully set forth herein.
14. Plaintiffs and those similarly situated are individuals who were or are employed by Defendant as
homecare providers through the In-Home Supportive
Services program in Los Angeles County at any time
between January 1, 2015 and February 1, 2016 (the
“Collective Period”). As IHSS Homecare Providers,
Plaintiffs and the similarly situated individuals were
responsible for providing in-home assistance for IHSS
recipients.
15. At all relevevant times, Defendant is, or has
been, Plaintiffs’ and the similarly situated individuals’
“employers” within the meaning of the FLSA, 29 U.S.C.
§ 203(d).
16. For example, Defendant DPSS exercises significant control over IHSS Homecare Providers’ work.
DPSS is responsible for hiring and orientation for
IHSS Homecare Providers in Los Angeles County.
DPSS maintains several offices within Los Angeles
County, which serve as the employment touchpoints
for IHSS Homecare Providers. DPSS is responsible for
reviewing requests by IHSS Homecare Providers to
work more than the pre-approved maximum weekly
hours. IHSS Homecare Providers regularly interact
with DPSS employees regarding changes in recipients’
health and/or condition. IHSS Homecare Providers
also interact with DPSS employees regarding inquiries
related to their pay.

63a
17. DPSS is responsible for setting IHSS Homecare Providers’ rates of pay. In June 2015, the Los Angeles County board of supervisors voted to raise the
wage for county IHSS workers. See http://www.latimes.
com/local/lanow/la-me-lncounty-home-care-worker-raise20150616-story.html.
18. Although IHSS Homecare Providers receive
paychecks from the State of California, DPSS is responsible for payment of a share of IHSS Homecare
Providers’ wages. The raises for IHSS Homecare Providers approved in 2015 were expected to cost the
County of Los Angeles over $42 million in 2015-16 and
2016-17.
19. DPSS is responsible for setting IHSS Homecare Providers’ hours of work, in that DPSS determines the hours for which IHSS Homecare recipients
are eligible. DPSS also exercises control over IHSS
Homecare Providers’ hours of work by reviewing requests to exceed the approved number of services
hours, and by communicating with IHSS Homecare
Providers regarding unauthorized overtime work.
20. DPSS has the right to discipline and fire
IHSS Homecare Providers. For example, DPSS is responsible for monitoring IHSS Homecare Providers’
hours, following progressive discipline if IHSS
Homecare Providers exceed their approved hours, and
terminating/suspending IHSS Homecare Providers for
repeated instances of exceeding the approved number
of hours.

64a
21. DPSS is responsible for inputting employment records, such as Providers’ contact information,
into a statewide database that maintains employment
records for IHSS Homecare Providers.
22. During the Collective Period, Defendant suffered and permitted Plaintiffs to regularly work more
than forty (40) hours in certain workweeks without
providing appropriate overtime compensation. Upon
information and belief, Defendants also suffered and
permitted the members of the FLSA Collective to regularly work more than forty (40) hours in certain workweeks during the Collective Period.
23. For example, Plaintiff Ray worked approximately 271 hours each month from January through
June 2015, approximately 280 hours in July 2015, and
approximately 283 hours in August and September
2015. As a result, she worked over 40 hours the vast
majority (if not all) of the weeks between January 2015
and September 2015. Indeed, 271 monthly hours
equates to an average of over 9 hours per day over 30
calendar days in a month, which leads to an average of
approximately 63 hours per week. Thus, from January
2015 through September 2015 Plaintiff Ray worked an
average of at least 63 hours per week. It is mathematically impossible to work 271 hours in a month without
working over 40 hours in at least one week.
24. By way of further example, Plaintiff Walker
worked approximately 283 in each month from July
through December of 2015, and approximately 263
hours from January through June of 2015. As a result,

65a
she worked over 40 hours the vast majority (if not all)
of the weeks in 2015. Indeed, 283 monthly hours
equates to an average of over 9.4 hours per day over 30
calendar days in a month, which leads to an average of
approximately 66 hours per week. Thus, from July
2015 through December 2015 Plaintiff Walker worked
an average of at least 66 hours per week. It is mathematically impossible to work 283 hours in a month
without working over 40 hours in at least one week.
25. During the Collective Period, Plaintiffs and
those similarly situated were not compensated in accordance with the FLSA because they were not paid
proper overtime wages for all hours worked in excess
of forty (40) per workweek. Specifically, rather than
paying them 1.5 times their regular rate of pay for all
hours worked over forty (40) in a workweek, which is
required by the FLSA (29 U.S.C. § 207), Defendant
paid them “straight time” for all of their overtime
hours worked. This was true for all IHSS Homecare
Providers throughout the Collective Period and specifically in the example weeks and months outlined in
paragraphs 23 and 24 above. Defendant’s failure to pay
the additional half-time for overtime hours violated
the FLSA.
26. Plaintiffs and those similarly situated have
been eligible for overtime since at least January 1,
2015, when the Department of Labor implemented
new regulations regarding overtime pay for home
health care workers. Defendant was aware of the new
regulations but did not begin paying overtime to IHSS
Homecare Providers until February 1, 2016.

66a
27. Defendant was aware, or should have been
aware, that Plaintiffs and the FLSA Collective performed work that required them to work overtime. For
example, Defendant informed Plaintiffs of the total
number of service hours their clients (the recipient enrolled in the IHSS program) were approved to receive
each month. In addition, Defendant required Plaintiff
and those similarly situated to report their work hours
via weekly timesheets, which routinely reflected overtime hours.
COLLECTIVE ACTION ALLEGATIONS
28. Plaintiffs bring this action on behalf of themselves and other similarly situated employees as authorized under the FLSA, 29 U.S.C. § 216(b). Plaintiff ’s
consent forms have previously been filed with the
Court.
29. The proposed FLSA Collective class is defined as follows:
All people employed by Defendant as
homecare workers, home care providers, or in
other similar job titles, through the In-Home
Supportive Services program and in Los Angeles County, and who were paid for hours in
excess of forty (40) per week at a rate of less
than 1.5 times their regular rate at any time
from January 1, 2015 to February 1, 2016.
30. Pursuant to the FLSA, 29 U.S.C. § 207, employers are generally required to pay overtime compensation at a rate of 1.5 times an employees’ regular

67a
rate of pay for hours worked over forty (40) in a workweek.
31. The FLSA contains an exemption from overtime for “domestic service” workers who provide companionship and other services to individuals who are
unable to care for themselves and also contains an exemption for live-in domestic service workers. 29 U.S.C.
§§ 213(a)(15) and 213(b)(21).
32. In October 2013, the United States Department of Labor determined that these exemptions do
not apply to domestic-service workers employed by
third-party agencies or employers.
33. Since January 1, 2015, federal regulations
have provided that domestic-service workers employed
by third-party agencies or employers are not exempt
from the FLSA’s minimum wage and overtime requirements. 29 C.F.R. § 552.109(a).
34. As of January 1, 2015, all domestic-service
workers employed by third-party agencies or employers are entitled to overtime compensation at an hourly
rate of 1.5 times the employee’s regular rate of pay for
hours worked over forty (40) in a work week.
35. During the Collective Period, Plaintiffs and
the FLSA Collective routinely worked in excess of forty
(40) hours per workweek without receiving proper
overtime compensation for their overtime hours
worked.
36. Despite the Department of Labor’s positon
that domestic-service workers employed by third-party

68a
agencies or employers are not exempt from the FLSA’s
minimum wage and overtime requirements, Defendant maintained its practice of failing to pay the proper
overtime compensation to Plaintiffs and the FLSA Collective from January 1, 2015 to February 1, 2016. In so
doing, Defendant violated the provisions of the FLSA,
29 U.S.C. §§ 207 and 215(a)(2).
37. Defendant was aware that it was not compensating Plaintiffs and the FLSA Collective for overtime between January 1, 2015 and February 1, 2016,
and was aware of the new Department of Labor regulations.
38. Defendant knowingly, willfully, or in reckless
disregard of the law, maintained an illegal practice of
failing to pay Plaintiff and the FLSA Collective proper
overtime compensation for all hours worked over forty
(40).
39. Defendant was liable under the FLSA for
failing to properly compensate Plaintiffs and the FLSA
Collective, and as such, notice should be sent to the
Collective. There are numerous similarly situated current and former employees of Defendant who have
been denied overtime pay in violation of the FLSA who
would benefit from the issuance of Court-supervised
notice of this lawsuit and the opportunity to join. Those
similarly situated employees are known to Defendant
and are readily identifiable through Defendant’s records.

69a
CLAIM FOR RELIEF
FAIR LABOR STANDARDS ACT
29 U.S.C. §§ 201 et seq.
(On Behalf of Plaintiff and the FLSA Collective)
40. Plaintiffs and the FLSA Collective allege and
incorporate by reference the allegations in the preceding paragraphs.
41. The FLSA requires covered employers, such
as Defendant, to compensate all non-exempt employees at a rate of not less than one and one-half times the
regular rate of pay for work performed in excess of
forty hours per work week.
42. Plaintiffs and the FLSA Collective are entitled to be paid overtime compensation for all hours
worked over forty (40) per workweek. By failing to pay
Plaintiffs and the FLSA Collective overtime compensation of one and one-half times their hourly rate of
pay for the overtime hours they worked, Defendant violated the FLSA, 29 U.S.C. §§ 201 et seq.
43. Defendant knew, or showed reckless disregard for the fact, that it failed to pay these individuals
overtime compensation in violation of the FLSA.
44. The foregoing conduct, as alleged, constitutes
a willful violation of the FLSA, within the meaning of
29 U.S.C. § 255(a).
45. Plaintiffs, on behalf of themselves and the
FLSA Collective, seek damages in the amount of all
unpaid overtime compensation owed to themselves

70a
and the FLSA Collective, liquidated damages as provided by the FLSA, 29 U.S.C. § 216(b), interest, and
such other legal and equitable relief as the Court
deems just and proper.
46. Plaintiffs, on behalf of themselves and the
FLSA Collective, seek recovery of attorneys’ fees and
costs to be paid by Defendant, as provided by the
FLSA, 29 U.S.C. § 216(b).
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs, on behalf of themselves
and all members of the FLSA Collective, pray for relief
as follows:
A. Designation of this action as a collective
action on behalf of Plaintiffs and those
similarly situated and prompt issuance of
notice pursuant to 29 U.S.C. § 216(b) to
all those similarly situated apprising
them of the pendency of this action, and
permitting them to assert timely FLSA
claims in this action by filing individual
consent forms pursuant to 29 U.S.C.
§ 216(b);
B.

Judgment that Plaintiffs and those similarly situated are non-exempt employees
entitled to protection under the FLSA;

C.

Judgment against Defendant for violation of the overtime provisions of the
FLSA;

71a
D. Judgment that Defendant’s violations as
described above were willful;
E. An award in an amount equal to Plaintiff ’s and the FLSA Collective’s unpaid
back wages at the applicable overtime
rate;
F.

An award to Plaintiffs and those similarly situated for the amount of unpaid
wages owed, liquidated damages and penalties where provided by law, and interest
thereon;

G. An award of reasonable attorneys’ fees
and costs pursuant to 29 U.S.C. § 216
and/or other applicable laws;
H. An award of prejudgment interest to the
extent liquidated damages are not
awarded;
I.

Leave to add additional plaintiffs by motion, the filing of written consent forms,
or any other method approved by the
Court;

J.

Leave to amend to add additional defendants, if necessary; and

K. For such other and further relief, in law
or equity, as this Court may deem appropriate and just.

72a
Dated: July 21, 2017

NICHOLS KASTER, LLP
By: s/Matthew C. Helland
Matthew C. Helland
Attorneys for Plaintiff
and Others Similarly Situated

73a
Matthew C. Helland, CA SBN 250451
helland@nka.com
Daniel S. Brome, CA SBN 278915
dbrome@nka.com
NICHOLS KASTER, LLP
235 Montgomery St., Suite 810
San Francisco, CA 94104
Telephone: (415) 277-7235
Facsimile: (415) 277-7238
Attorneys for Plaintiff and Others Similarly Situated
IN THE UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Trina Ray, individually,
and on behalf of others
similarly situated,
Plaintiff,
v.
California Department
of Social Services, and
Los Angeles County
Department of Public
Social Services,
Defendants.

Case No.
2:17-cv-04239-PA-SK
MEMORANDUM OF
POINTS AND
AUTHORITIES IN
SUPPORT OF
PLAINTIFF’S MOTION
FOR CONDITIONAL
CERTIFICATION AND
DISTRIBUTION OF
JUDICIAL NOTICE
(Filed Jul. 3, 2017)
Date: July 31, 2017
Time: 1:30 p.m.
Room: 9A
Hon. Percy Anderson

74a
[ii] TABLE OF CONTENTS
I.

INTRODUCTION ......................................

1

II. FACTUAL BACKGROUND .........................

2

A. IHSS Homecare Providers Have Similar Job Responsibilities .........................

2

B. IHSS Homecare Providers Were Subject to Similar Hiring Requirements ....

2

C. IHSS Homecare Providers are Subject
to the Same State and County Agency
Policies Regarding Pay ..........................

3

D. Defendants Paid IHSS Homecare Providers at a Uniform Rate, with Straight
Time for Overtime .................................

3

E. Defendants Took Uniform Steps in Their
Delayed Implementation of FLSA Regulations ..................................................

4

F. Plaintiff and Some LA IHSS Homecare
Providers Worked Overtime ..................

5

ARGUMENT ................................................

5

A. IHSS Homecare Providers are Similarly
Situated, So Conditional Certification
Under the FLSA is Warranted ..............

5

i. The FLSA’s two-stage certification
process ..............................................

6

ii. Plaintiff and IHSS Homecare Providers are similarly situated ............

9

III.

B. The Court Should Authorize Judicial Notice .......................................................... 11
i. Judicial Notice is Warranted ...........

12

75a
ii. Plaintiffs Proposed Notice is Accurate and Informative ........................ 14
1. Reminder Postcard .................... 16
2. Email Notice.............................. 17
3. Posting Notice ........................... 19
4. Text Message Notice ................. 20
5. Language Access ....................... 22
IV.

CONCLUSION .......................................... 23
[iii] TABLE OF AUTHORITIES

Cases
Adams v. Inter-Con Sec. Sys., Inc., 242 F.R.D. 530
(N.D. Cal. 2007) .......................................................21
Bados Madrid v. Peak Constr., Inc., 2009 WL
2983193 (D. Ariz. Sept. 17, 2009) ............................21
Bazzell v. Body Contour Centers, LLC, 2016 WL
3655274 (W.D. Wash. July 8, 2016).........................19
Bonner v. SFO Shuttle Bus Co., 2013 WL 6139758
(N.D. Cal. Nov. 21, 2013) .........................................20
Boyd v. Bank of Am. Corp., 2013 WL 6536751
(C.D. Cal. Dec. 11, 2013) ...................................... 8, 17
Brewer v. General Nutrition Corp., 2013 WL
100195 (N.D. Cal. Jan. 7, 2013) ........................ 12, 13
Carrillo v. Schneider Logistics, Inc., 2012 WL
556309 (C.D. Cal. Jan. 31, 2012) ....................... 21, 23
Coates v. Farmers Grp., Inc., 2015 WL 8477918
(N.D. Cal. Dec. 9, 2015) ...........................................19

76a
Coyle v. Flowers Foods Incorporated, 2016 WL
4529872 (D. Ariz. Aug. 30, 2016) .............................21
Davis v. Social Serv. Coordinators, 2012 WL
5361746 (E.D. Cal. Oct. 30, 2012) .............................9
Davis v. Westgate Planet Hollywood Las Vegas,
LLC, 2009 WL 102735 (D. Nev. Jan. 12, 2009) .......20
Dillow v. Home Care Network, Inc., 2017 WL
2418738 (S.D. Ohio June 5, 2017) ...........................11
Gatdula v. CRST Int’l, Inc., 2012 WL 12884919
(C.D. Cal. Aug. 21, 2012) .........................................12
Gee v. Suntrust Mortgage, Inc., 2011 WL 722111
(N.D. Cal. Feb. 18, 2011)..........................................18
Guy v. Casal Inst. of Nevada, LLC, 2014 WL
1899006 (D. Nev. May 12, 2014) .............................20
Harris v. Vector Marketing Corp., 716 F. Supp. 2d
835 (N.D. Cal. 2010) ................................................18
Helton v. Factor 5, Inc., 2012 WL 2428219 (N.D.
Cal. June 26, 2012) ..................................................17
Hoffmann-La Roche Inc. v. Sperling, 493 U.S.
165 (1989) ........................................................ passim
Home Care Ass’n of Am. v. Weil, 799 F.3d 1084
(D.C. Cir. 2015), cert. denied, 136 S. Ct. 2506
(2016) .........................................................................4
Javine v. San Luis Ambulance Serv., Inc., 2015
WL 12672090 (C.D. Cal. Jan. 13, 2015) ................ 7, 8
Johnson v. Pink Spot Vapors, Inc., 2015 WL
1413614 (D. Nev. Mar. 27, 2015) .............................20
Kelly v. Bluegreen Corp., 2008 WL 4962672 (W.D.
Wis. Nov. 19, 2008) ............................................ 13, 15

77a
Kress v. PricewaterhouseCoopers, LLP, 263 F.R.D.
623 (E.D. Cal. 2009) .............................................. 7, 9
[iv] Labrie v. UPS Supply Chain Sols., Inc., 2009
WL 723599 (N.D. Cal. Mar. 18, 2009) ................. 9, 10
Leuthold v. Destination Am., Inc., 224 F.R.D. 462
(N.D. Cal. 2004) ............................................... 7, 9, 10
Lewis v. Wells Fargo & Co., 669 F. Supp. 2d 1124
(N.D. Cal. 2009) .......................................................19
Litty v. Merrill Lynch & Co., Inc., 2014 WL
5904907 (C.D.Cal. 2014) .........................................11
Margulies v. Tri-Cty. Metro. Transp. Dist. of Oregon, 2013 WL 5593040 (D. Or. Oct. 10, 2013) ... 19, 21
Mayfield-Dillard v. Direct Home Health Care, Inc.,
2017 WL 945087 (D. Minn. Mar. 10, 2017) .............11
McDonald v. Ricardo’s on the Beach, Inc., 2013
WL 228334 (C.D. Cal. Jan. 22, 2013) ........................8
Misra v. Decision One Mortg. Co., 673 F. Supp.
2d 987 (C.D. Cal. 2008) ..................................... 6, 7, 8
Mitchell v. Acosta Sales, LLC, 841 F. Supp. 2d
1105 (C.D. Cal. 2011) ............................................ 7, 8
Nikmanesh v. Wal-Mart Stores, Inc., 2015 WL
12683964 (C.D. Cal. Aug. 18, 2015) ........................19
O’Brien v. Ed Donnelly Enters., Inc., 575 F.3d
567 (6th Cir. 2009) ...................................................10
Phelps v. MC Commc’ns, Inc., 2011 WL 3298414
(D. Nev. Aug. 1, 2011) ..............................................18
Ramirez v. Ghilotti Bros, Inc., 941 F. Supp. 2d
1197 (N.D. Cal. Apr. 25, 2013) ..................... 17, 21, 23

78a
Sanchez v. Sephora USA, Inc., 2012 WL 2945753
(N.D. Cal. July 18, 2012) ..................................... 9, 17
Schemkes v. Presidential Limousine, 2011 WL
868182 (D. Nev. Mar. 10, 2011) ...............................19
Sliger v. Prospect Mortg., LLC, 2011 WL 3747947
(E.D. Cal. 2011) .........................................................9
Smith v. Bimbo Bakeries USA, Inc., 2013 WL
4479294 (C.D. Cal. Aug. 19, 2013) ............................7
Syed v. M-I, L.L.C., 2014 WL 6685966 (E.D. Cal.
Nov. 26, 2014) .................................................... 18, 20
Thomas v. Kellogg Co., 2014 WL 716152 (W.D.
Wash. Jan. 9, 2014) .................................................20
Vance v. Cuarto LLC, 2014 WL 12646033 (D. Or.
Oct. 6, 2014) .............................................................20
Villarreal v. Caremark LLC, 2014 WL 4247730
(D. Ariz. Aug. 21, 2014)............................................13
Woods v. Vector Mktg. Corp., 2015 WL 1198593
(N.D. Cal. Mar. 16, 2015) .........................................20
Statutes
29 U.S.C. § 216(b) .................................................. 13, 15
29 U.S.C. § 256(b) .................................................... 6, 13
[1] I. INTRODUCTION
Plaintiff and those she seeks to represent were
employed by the Los Angeles Department of Public Social Services (“DPSS”) and the California Department
of Social Services (“CDSS”) as homecare providers
through the In-Home Supportive Services program.

79a
Defendants DPSS and CDSS paid these workers
straight-time pay (instead of time-and-a-half ) for
hours worked in excess of 40 in a week until February
1, 2016, despite their knowledge that the workers were
eligible for overtime pay prior to that date. Plaintiff
seeks conditional certification of this case as a collective action under the Fair Labor Standards Act
(“FLSA”) on behalf of the following defined Collective:
All people employed by Defendants as homecare workers, home care providers, or in other
similar job titles, through the In-Home Supportive Services program and in the County of
Los Angeles, who were paid for hours in excess of forty (40) per week at a rate of less than
1.5 times their regular rate at any time from
January 1, 2015 to February 1, 2016 (“LA
IHSS Homecare Providers”).
The Court should grant this motion because all LA
IHSS Homecare Providers are similarly situated with
respect to the relevant pay policies and practices.
As is commonplace in FLSA collective actions, the
Court should authorize Judicial Notice of this case to
members of the Collective. Prompt issuance of Judicial
Notice is important because, unlike in a Rule 23 class
action, the FLSA statute of limitations on each putative plaintiff ’s individual claim continues to run until
the employee files a consent form with the Court. Since
CDSS and DPSS began paying overtime in February
2016, and the statute of limitations for non-willful violations of the FLSA is two years, FLSA claims in this
case are quickly disappearing. Plaintiffs therefore

80a
request that the Court grant this motion promptly and
authorize distribution of their proposed Judicial Notice.
[2] II. FACTUAL BACKGROUND
Plaintiff and LA IHSS Homecare Providers are
similarly situated because they had similar job responsibilities, were subject to similar hiring requirements,
were subject to the same policies regarding pay, were
all paid straight time for overtime until February 1,
2016, and were all therefore subject to Defendants’ delayed implementation of new FLSA regulations.
A. IHSS Homecare Providers Have Similar
Job Responsibilities
Plaintiff and other LA IHSS Homecare Providers
assist seniors and people with disabilities (“consumers”) with personal and household tasks. While the
particular assistance needed for each consumer will
vary according to their medical conditions and functional abilities, LA IHSS Homecare Providers’ work
is limited to domestic and personal care services. (Helland Decl. Exh. 1, p. 13-14, 17-22.) Tasks can include
housework, meal preparation, dressing, bathing, assistance with toileting, feeding, accompaniment to medical appointments, and other similar domestic and
personal care services. (Id. p. 17-21; Ray Decl. ¶ 2;
Nichols Del. Sutherland Decl. ¶ 2.) A county social
worker conducts an assessment of each consumer to
determine the specific domestic services provided and

81a
the number of monthly hours allotted for services.
(Helland Decl. Exh. 1, p. 5, 13-14.)
B. IHSS Homecare Providers Were Subject
to Similar Hiring Requirements
All LA IHSS Homecare Providers were required,
by DPSS policy and state law, to take the same steps
in order to become an LA IHSS Homecare Provider
Plaintiff and other LA IHSS Homecare Providers were
required to: (1) attend an “on-site, in-person provider
orientation to obtain information about IHSS rules
and requirements for being a provider” (2) Complete a
CDSS IHSS Provider Enrollment Form (also known as
form SOC 426) and submit it to Los Angeles County in
person, along with a government-issued photo id and
social security card (3) complete and sign a Provider
Enrollment Agreement, CDSS form SOC 846, [3] indicating that the provider agrees to the rules of the IHSS
program, and finally (4) submit fingerprints and pass
a Criminal Background Investigation done by the Department of Justice. (Helland Decl. Exhs. 2, 3, 4; see
also Ray Decl. ¶ 3; Nichols Del. ¶ 3; Sutherland Decl.
¶ 3.) Plaintiff and other LA IHSS Homecare Providers
could not be enrolled as providers or receive payment
until completing all of the above requirements.

82a
C. IHSS Homecare Providers are Subject to
the Same State and County Agency Policies Regarding Pay
The CDSS and the DPSS impose uniform pay policies and requirements or all LA IHSS Homecare Providers. The CDSS pays LA IHSS Homecare Providers
and sets rules for the IHSS Program. (Helland Decl.
Exh. 1 p. 8.) The county (here, DPSS), determines
the consumers’ approved hours (to be worked by the
IHSS Homecare Provider), collects timesheets, maintains payroll, and inputs timesheets into the CDSS
computer. (Id.)
DPSS required that Plaintiff and all other LA
IHSS Homecare Providers follow the same hours reporting process in order to get paid. LA IHSS Homecare Providers were to complete paper timesheets with
the number of hours worked each day for the bimonthly pay period. (Helland Decl. Exh. 5.) Both the
provider and the IHSS recipient/recipient’s authorized
representative were required to sign each timesheet.
(Id.) Plaintiff and other IHSS providers were required
to mail completed timesheets to a “Timesheet Processing Facility” in Chico, CA. (Id.)
D. Defendants Paid IHSS Homecare Providers at a Uniform Rate, with Straight Time
for Overtime
Defendant paid all LA IHSS Homecare Providers
the same hourly rate. which was $9.65 per hour in
2015. (Helland Decl. Exh. 5.) Plaintiff and all other LA

83a
IHSS Homecare Providers were paid “straight time”
for all hours worked during the time period covered by
this case, and were not paid overtime wages ii they
worked more than 40 hours a week. (See Helland Decl.
Exh. 6, p. 3 (“[all] [4] IHSS providers will continue to
be paid straight-time at the locally bargained hourly
wage rate in the same manner in which hours were reported and providers were paid in 2014”); Ray Decl.
¶ 5; Nichols Del. ¶ 5; Sutherland Decl. ¶ 5.)
E. Defendants Took Uniform Steps in Their
Delayed Implementation of FLSA Regulations
On October 1, 2013, the Department of Labor published its Final Rule on the Application of the FLSA to
Domestic Service. This rule made IHSS Homecare Providers employed by third party agencies like DPSS and
CDSS eligible for overtime under the FLSA. (Helland
Decl. Exh. 6, p. 1.) On October 8, 2014, CDSS issued an
All County Letter explaining the changes in federal
law and informing county social services agencies that
the new overtime requirements would go into effect on
January 1, 2015. (Helland Decl. Exh. 7, p. 5.) A CDSS
SOC 846 form dated 9/2014 states that “[b]eginning
January 1, 2015, IHSS providers will get paid overtime
(one and a half times the regular pay rate) when they
work more than 40 hours in a workweek.” (Helland
Decl. Exh. 8, p. 1.)
However, CDSS delayed implementation of these
changes due to a legal challenge to the Department of

84a
Labor regulations. (See Helland Decl. Exhs. 6, 9.) On
January 23, 2015, the CDSS issued an All-County letter informing County Welfare Directors of the implementation halt and stating “[a]ll county IHSS offices
and county public authorities should continue to operate under the requirements and regulations for payment of wages that were in effect on December 31,
2014.” (Helland Decl. Exh. 6, at 3.) On August 21, 2015
the United States Court of Appeals for the District of
Columbia Circuit held that the DOL regulations were
valid and enforceable as issued. See Home Care Ass’n
of Am. v. Weil, 799 F.3d 1084 (D.C. Cir. 2015), cert. denied, 136 S. Ct. 2506 (2016). On November 4, 2015,
CDSS announced that it would begin paying IHSS
providers overtime compensation effective February 1,
2016. (Helland Decl. Exh. 10.) CDSS issued [5] subsequent guidelines to counties for implementation of
overtime pay. (See e.g. Helland Decl. Exh. 11.)
F. Plaintiff and Some LA IHSS Homecare
Providers Worked Overtime
Plaintiff Ray worked for CDSS and DPSS as an LA
IHSS Homecare Provider from approximately 2010 or
2011 until approximately October 2015, and then
again from September or October 2016 through the
present. (Ray Decl. ¶¶ 2-3.) During the time period relevant to this case, Plaintiff was approved to provide
283 hours of services each month, which is an average
of approximately 66 hours per week. (Id. ¶ 4; Compl.,
ECF No. 1 ¶ 21.) As a result, Plaintiff Ray regularly
worked in excess of 40 weekly hours. (Ray Decl. ¶ 4;

85a
Compl., ECF No. 1 ¶ 21.) CDSS and DPSS did not pay
her for overtime pay at a rate of 1.5 times her regular
rate for weekly hours in excess of 40. (Ray Decl. ¶ 5;
Helland Decl. Exh. 6, p. 3.) Other LA IHSS Homecare
Providers who have joined this case similarly worked
over 40 hours in a week in 2015 without payment of
overtime. (Nichols Decl. ¶¶ 4-5; Sutherland Decl. ¶¶ 45.) Many other LA IHSS Homecare Providers likewise
worked overtime during 2015. (Ray Decl. ¶ 7; Nichols
Decl. ¶ 7; Sutherland Decl. ¶ 7.) According to CSDD,
21% of IHSS Homecare Providers worked overtime in
February 2016. (Helland Decl. Exh. 12, p. 11.)
III. ARGUMENT
A. IHSS Homecare Providers are Similarly
Situated, So Conditional Certification
Under the FLSA is Warranted
The FLSA specifically provides that an action for
unpaid overtime wages may be maintained “by any
one or more employees for and in behalf of himself of
themselves and other employees similarly situated.” 29
U.S.C. § 216(b) (emphasis added). The FLSA’s collective action procedure allows for efficient adjudication
of similar claims, so “similarly situated” employees,
whose claims are often small and not likely to be
brought on an individual basis, may join together
and pool their [6] resources to prosecute their claims.
See Hoffmann-La Roche Inc. v. Sperling, 493 U.S. 165,
170 (1989).

86a
Three important features define FLSA collective
actions. First, in order to participate in a collective action, an employee must “opt in,” meaning he or she
must consent in writing to join the suit and that consent must be filed with the court. Misra v. Decision
One Mortg. Co., 673 F. Supp. 2d 987, 992 (C.D. Cal.
2008). Second, the statute of limitations runs on each
employee’s claim until his or her consent is filed.
See 29 U.S.C. § 256(b); Johnson v. Serenity Transportation, Inc., 2016 WL 1569984, at *4 (N.D. Cal. Apr. 19,
2016). Third, to serve the FLSA’s “broad remedial purpose,” district courts have the discretionary power to
order notice to other potentially similarly situated employees to inform them of their right to join the case.
Hoffmann-La Roche, 493 U.S. at 173.
The collective action mechanism lowers litigation
costs for individual plaintiffs, and decreases the burden on the courts through “efficient resolution in one
proceeding of common issues of law and fact arising from
the same alleged discriminatory activity.” HoffmannLa Roche, 493 U.S. at 170. “These benefits . . . depend
on employees receiving accurate and timely notice concerning the pendency of the collective action, so that
they can make informed decisions about whether to
participate.” Id. Thus, the district court “has a managerial responsibility to oversee the joinder of additional parties to assure that the task is accomplished
in an efficient and proper way.” Id. at 170-71.

87a
i.

The FLSA’s two-stage certification process

Generally, district courts in the Ninth Circuit, including the Central District of California, follow a twostage process to determine whether a collective action
under the FLSA should be certified. See, e.g., Javine v.
San Luis Ambulance Serv., Inc., 2015 WL 12672090, at
**6-7 (C.D. Cal. Jan. 13, 2015); Smith v. Bimbo Bakeries USA, Inc., 2013 WL 4479294, at *2 (C.D. Cal. Aug.
19, 2013); Mitchell v. Acosta Sales, LLC, 841 F. Supp. 2d
1105, 1115 (C.D. Cal. 2011); Kress v. [7] PricewaterhouseCoopers, LLP, 263 F.R.D. 623, 627 & n.3 (E.D. Cal.
2009); Misra v. Decision One Mortg. Co., 673 F. Supp.
2d 987 (C.D. Cal. 2008); Leuthold v. Destination Am.,
Inc., 224 F.R.D. 462, 466-67 (N.D. Cal. 2004) (noting
that most courts prefer the two-step approach). This
District has described the two-stage process as follows:
Under this two-step approach, a district court
first determines, based on the submitted pleadings and affidavits, whether the proposed
class should be notified of the action. Since
this first determination is generally made before the close of discovery and based on a limited amount of evidence, the court applies a
fairly lenient standard and typically grants
conditional class certification. The standard
applied is less rigorous than the commonality
requirement of Rule 23.
To satisfy the initial step, a plaintiff need only
make a modest factual showing sufficient to
demonstrate that [she] and potential plaintiffs together were victims of a common policy

88a
or plan that violated the law. If conditional
class certification is granted, the district court
may authorize the named plaintiff to send
written notice to all potential plaintiffs and
set a deadline for those plaintiffs to opt-in to
the suit.
The second step in this approach occurs after
discovery is complete, at which time the defendants may move to decertify the class. In
this second-step determination, the court
makes a factual determination about whether
the plaintiffs are similarly situated by weighing such factors as (1) the disparate factual
and employment settings of the individual
plaintiffs, (2) the various defenses available to
the defendant which appeared to be individual to each plaintiff, and (3) fairness and procedural considerations. If the district court
determines that the plaintiffs are not similarly situated, the court may decertify the
class and dismiss the opt-in plaintiffs without
prejudice.
Misra, 673 F. Supp. 2d at 992-93 (citations and quotations omitted); see also Boyd v. Bank of Am. Corp., 2013
WL 6536751, at **1-2 (C.D. Cal. Dec. 11, 2013) (outlining the two-step process and granting motion under lenient standard).
At the first tier—the “notice” stage—the standard
is “fairly lenient,” and typically results in conditional
certification. Javine, 2015 WL 12672090, at *6. For [8]
conditional certification, plaintiffs are similarly situated when they show “some identifiable factual or legal

89a
nexus binds together the various claims of the class
members.” Id. at *7. In Javine, the nexus was the employer’s alleged failure to include bonus payments in
the regular rate for purposes of calculating overtime.
Id. The court granted conditional certification, recognizing that “courts often certify claims based on allegations that a defendant has miscalculated employees’
overtime pay.” Id.; see also McDonald v. Ricardo’s on
the Beach, Inc., 2013 WL 228334, at *2 (C.D. Cal. Jan.
22, 2013) (conditional certification granted where
plaintiffs alleged that the employer paid straight time
only unless employees worked over 80 hours in two
weeks, as opposed to 40 hours in a week).
Importantly, at this first notice stage, each plaintiff ’s employment circumstances need not be identical.
Boyd, 2013 WL 6536751, at *3; Mitchell, 841 F. Supp.
2d at 1115 (“Plaintiff need not show that his position
is or was identical to the putative class members’ positions; a class may be certified under the FLSA if the
named plaintiff can show that his position was or is
similar to those of the absent class members.”);
Sanchez v. Sephora USA, Inc., 2012 WL 2945753, at *2
(N.D. Cal. July 18, 2012) (same). Further, at the notice
stage, courts do not decide substantive issues going to
the merits of the case or make credibility determinations. E.g., Davis v. Social Serv. Coordinators, 2012 WL
5361746, *23 (E.D. Cal. Oct. 30, 2012) (rejecting defendant’s merits based arguments as being better left
for the second stage where merits-based decisions can
be made on a complete record); Sanchez, 2012 WL
2945753, at *4 (same); Labrie v. UPS Supply Chain

90a
Sols., Inc., 2009 WL 723599, at *7 (N.D. Cal. Mar. 18,
2009) (noting that a merits analysis is “beyond the
scope” of conditional certification). In fact, “[i]n determining whether plaintiffs have met [the similarly situated] standard, courts need not consider evidence
provided by defendants.” Kress, 263 F.R.D. at 628: accord Sliger v. Prospect Mortg., LLC, 2011 WL 3747947,
*3 (E.D. Cal. 2011).
[9] The second tier comes after discovery is largely
complete, typically on a motion for decertification by
the defendant. Kress, 263 F.R.D. at 628. There, the
court makes a second determination using a stricter
“similarly situated” standard. Id. Factors considered at
the second stage include: (1) factual and employment
settings of the individual plaintiffs; (2) the various defenses available to the defendant with respect to the
individual plaintiffs; and (3) fairness and procedural
considerations. Id. (quoting Leuthold, 224 F.R.D. at
467). The court then decides whether the plaintiffs are
“similarly situated” in order to proceed to trial, or
whether the case should be fully or partially decertified. See O’Brien v. Ed Donnelly Enters., Inc., 575 F.3d
567, 586 (6th Cir. 2009) (discussing the benefits of partial decertification); Labrie, 2009 WL 723599, at *7
(“In the event that discovery reveals that this is not a
proper case for a FLSA collective action . . . then the
court may decertify the class and dismiss the opt-in
plaintiffs without prejudice.”); Leuthold, 224 F.R.D. at
467 (same).
This case is clearly in the first stage, as Plaintiff
filed her complaint only 2 days ago. (ECF No. 1.) Under

91a
the first-stage analysis, therefore, the facts described
above show that Plaintiff is similarly situated to the
opt-in Plaintiffs and the putative opt-in Plaintiffs, and
the case is appropriate for conditional certification and
judicial notice.
ii. Plaintiff and IHSS Homecare Providers are similarly situated
Plaintiff submits sufficient evidence to meet the
minimal standard required for conditional certification. This lawsuit challenges a single policy of Defendants: delaying implementation of federal regulations
that require agencies and third-party employers of
home health workers to pay such workers overtime
wages for overtime hours worked. Defendants’ public
statements establish that it treated all LA IHSS
Homecare Providers the same with respect to overtime
eligibility and payment: it paid all members of the putative collective on a straight-time basis for all hours
worked until February 1, 2016, when it began properly
paying overtime.
[10] Moreover, the record shows that CDSS took
steps to ensure that county agencies such as DPSS implemented overtime policies in a uniform manner. (See
Helland Decl. Exhs. 6-11.) When the regulations were
challenged in court, CDSS decided to delay implementation statewide. (Helland Decl. Exhs. 6, 9.) And when
the challenge proved unsuccessful in August 2015,
CDSS implemented a state-wick program to begin paying overtime—but not until February 2016. (Helland

92a
Decl Exh. 10.) Plaintiff and all LA IHSS Homecare Providers are similarly situated in that they were subject
to the same delayed implementation of the law.
In addition to being subject to the same unlawful
pay policy, Plaintiff and all other similarly situated
employees worked in one county (Los Angeles), and
through one county agency. They reported their hours
using the same form and through the same procedures,
and they were all paid by CDSS. (See Helland Decl,
Exhs. 1, 3-5.) Accordingly, time sheets and payroll records will serve as common evidence to identify putative
plaintiffs and to establish liability.
Notably, this case does not involve a challenge to
exempt status. See Litty v. Merrill Lynch & Co., Inc.,
2014 WL 5904907 (C.D.Cal. 2014) (Anderson, J. (denying FLSA conditional certification in case involve an
exemption defense). LA IHSS Healthcare Workers’ job
duties therefore have no bearing on the merits of this
case. Even so, the structure of the IHSS program ensures that all LA IHSS Homecare Providers perform
only domestic and personal care services. (See, e.g.,
Helland Decl. Exh. p. 13-14, 17-22.) Defendants admit
these are non-exempt job duties under the current
FLSA regulations. (Helland Decl. Exh. 7, p. 2 (“As a result of the changes in the FLSA rules, IHSS . . . providers will be required to be paid overtime”).)
This is a very straightforward case, in which the
Defendants admit the workers are eligible for overtime
but delayed implementing changes to its practices and
procedures. Courts recognize that conditional certification

93a
is appropriate in home healthcare cases like this one.
See Dillow v. Home Care Network, Inc., 2017 [11] WL
2418738, at *1 (S.D. Ohio June 5, 2017); MayfieldDillard v. Direct Home Health Care, Inc., 2017 WL
945087, at *2 (D. Minn. Mar. 10, 2017). This Court
should do the same, and authorize notice to all LA
IHSS Homecare Providers who were paid for more
than 40 hours in any week between January 1, 2015
and February 1, 2016.
B. The Court Should Authorize Judicial
Notice
Court-supervised notice is the preferred method
for managing the notification process for several reasons: (1) it avoids a “multiplicity of duplicative suits”;
(2) allows the court to set deadlines to advance the disposition of an action; (3) furthers the “wisdom and necessity for early judicial intervention” in multi-party
actions; (4) it prevents plaintiffs’ claims from expiring
under the statute of limitations; and (5) it ensures that
the plaintiffs receive accurate and timely notice so
they can make an informed decision on whether to join
the suit. See Hoffmann-La Roche, 493 U.S. at 170-173.
Ultimately, the purpose of judicial notice is to give employees accurate and timely notice of a pendency of the
collective action so they can make an informed decision
about whether to participate. Id. at 170; Gatdula v.
CRST Int’l, Inc., 2012 WL 12884919, at *6 (C.D. Cal.
Aug. 21, 2012)

94a
The United States Supreme Court determined that
district courts have the authority to manage the process of joining multiple parties, consider a motion for
collective action certification, and issue court-approved
notice in the “appropriate case.” See Hoffmann-La Roche,
493 U.S. at 169; Brewer v. General Nutrition Corp.,
2013 WL 100195, *5 (N.D. Cal. Jan. 7, 2013) (“In appropriate circumstances Courts may provide ‘accurate
and timely’ notice to potential plaintiffs so that they
“can make informed decisions about whether to participate.”). The benefits to the judicial system of FLSA
collective actions “depend on employees receiving accurate and timely notice concerning the pendency of
the collective action, so that they can make informed
decisions about whether to participate.” Id. District
courts are encouraged to become involved in the notice
[12] process early to ensure “timely, accurate, and informative” notice and to het maintain control of the litigation. Id. at 171-72.
i. Judicial Notice is Warranted
Prompt issuance of Judicial Notice is essential because the statute of limitations on putative plaintiffs’
claims will continue to run until they receive notice
and consent in writing to join the case. See 29 U.S.C.
§ 216(b); 29 U.S.C. § 256(b). Unlike Rule 23 class actions, the statute of limitations for those who have not
filed consent forms is not tolled with the commencement of this action. Villarreal v. Caremark LLC, 2014
WL 4247730, at *4 (D. Ariz. Aug. 21, 2014) (recognizing
the prejudice caused the running FLSA statute of

95a
limitations and rejecting the defendant’s request for a
60 day extension to conduct discovery prior to filing an
opposition to the plaintiffs’ motion for conditional certification); Kelly v. Bluegreen Corp., 2008 WL 4962672,
at *2 (W.D. Wis. Nov. 19, 2008) (“The longer the delay
in notice to potential class members, the more potential class members will lose their opportunity to opt in
to this class before the statute of limitations runs on
their claims. Such a risk of delay creates an unnecessary risk that a growing number of potential class
members will have only the option of filing their own
lawsuits.”). The consequence is that claims are lost
with each day that passes without proper notice of this
lawsuit being provided to all putative class members.
The effect of the running statute of limitations is
especially crucial in this case, since Defendants began
paying overtime on February 1, 2016. The FLSA statute of limitations is two years (extended to three upon
a showing of willfulness),1 meaning that potential optins have less than 8 months of timely claims for nonwillful violations as of the date of this filing. Any delay
in the [13] issuance of notices reduces claims even further. The Court should authorize prompt issuance of
Judicial Notice to prevent further erosion of claims.
The Court should also order Defendants to provide Plaintiff ’s counsel a list of all putative collective
members and their contact information. The identification of these individuals is critical for Plaintiffs to
provide those individuals with notice of the action as
1

29 U.S.C. § 255(a).

96a
contemplated by the FLSA. See Hoffmann-La Roche,
493 U.S. at 170 (affirming that the district court correctly permitted discovery of the names and addresses
of the putative class). This is precisely the reason why
a list of potential plaintiffs is routinely disclosed in
FLSA collective actions. Id. at 165.
Accordingly, Plaintiff respectfully requests that
within ten days of the Court’s Order, Defendants be required to provide Plaintiff ’s counsel with a list (in Excel of similar exportable format) of all people employed
by Defendants as homecare workers, home care providers, or in other similar job titles, through the InHome Supportive Services program and in the County
of Los Angeles, who were paid for hours in excess of
forty (40) per week at a rate of less than 1.5 times their
regular rate at any time from January 1, 2015 to February 1, 2016 (“LA IHSS Homecare Providers”). This list
should include the (1) name, (2) job title(s), (3) dates of
employment, (4) last known address and cell phone
number, (5) location of employment, (6) employee number, (7) social security number (last four digits only),
(8) last known email address, and (9) primary language
for all LA IHSS Homecare Providers. See Riendeau,
2013 WL 2422689, at *3 (granting conditional certification and ordering defendant to produce to plaintiffs
a Microsoft Excel spreadsheet containing the list and
contact information for the putative collective members).
Plaintiff respectfully requests that the Court rule
on the form and manner of notice in conjunction with
this motion. Defendants often request a “meet and

97a
confer” to negotiate the content of notice after a conditional certification motion is granted. However, that
meet and confer process directly disadvantages the putative [14] collective, because the statute of limitations
continues to run while the parties haggle about notice
issues. See Kelly, 2008 WL 4962672, at *2 (“The longer
the delay in notice to potential class members, the
more potential class members will lose their opportunity to opt in to this class before the statute of limitations runs on their claims. Such a risk of delay
creates an unnecessary risk that a growing number of
potential class members will have only the option of
filing their own lawsuits.”). Defendants can address
any concerns with Plaintiff ’s proposed notice in their
opposition to this motion. In order to ensure that notice
is distributed in a timely manner, Plaintiff respectfully
requests an order resolving any notice issues which
Defendants may raise.
ii. Plaintiff ’s Proposed Notice is Accurate and Informative
Judicially authorized notice of a collective action
under § 216(b) must be “timely, accurate, and informative.” Hoffmann-La Roche, 493 U.S. at 172. Plaintiff ’s
proposed judicial notice will provide employees with an
accurate description of this lawsuit, as well as their
rights under the FLSA. (See Helland Decl. Exh. 13.) As
such, the proposed notice achieves the ultimate goal of
providing employees accurate and timely notice concerning the pendency of the collective action without
taking sides on the merits.

98a
Plaintiff ’s proposed notice borrows from the sample Rule 23 class action notice drafted by the Federal
Judicial Center (“FJC”). (See Helland Decl. Exhs. 13.
14.) The Federal Judicial Center drafted its sample
class notices “[a]t the request of the Subcommittee on
Class Actions of the U.S. judicial branch’s Advisory
Committee on the Federal Rules of Civil Procedure.”
(Helland Decl. Exh. 15.) Although the substance of the
FJC sample notices is largely irrelevant because the
notices address issues specific to class actions, the
FJC’s goal of clearly communicating a recipient’s
rights is equally important (if not more important) in
FLSA collective actions. (Compare Helland Decl. Exh.
16 (“Our focus grout experience tells us that attorneys
and judges can significantly improve class [15] members’ motivation to read and comprehend class action
notices by changing the language, organizational
structure, format, and presentation of the notice.”)
with Hoffmann-LaRoche, 493 U.S. at 170 (the benefits
of a collective action “depend or employees receiving
accurate and timely notice concerning the pendency of
the collective action.”).) A notice mailing which the recipient discards before reading and understanding it is
not effective notice, whether under Rule 23 or Hoffmann-LaRoche.
The FJC study disclosed that many notice recipients held a “preconceived notion of a notice [which] was
almost totally negative; they expected to find wordy legalese that would be difficult or impossible to understand.” (Helland Decl. Exh, 16.) Recipients “were not
eager to tackle any type of legal document and said

99a
they are flooded daily with ‘junk mail.’ ” (Id.) Accordingly, “[a] threshold challenge is to get potential
class members to open and read a class action notice.” (Id. (emphasis added).) For this reason, Plaintiff
has included proposed language on the envelope to be
sent to members of the Collective. (See id. (“[g]enerally,
participants preferred direct declarations of the envelope’s contents such as ‘Notice of Proposed Class Action
Settlement.’ ”)) Plaintiff ’s proposed envelope language
follows the FJC’s suggested format. (Compare Helland
Decl. Exh. 17 with Exh. 18.)
The challenge does not end when recipients open
the envelope, however. As the FJC recognized, “[a]nother
challenge is to convince people to read and act on the
class action notice rather than throw it away.” (Helland
Decl. Exh. 16.) The decision to throw away the notice
or keep reading it may be made in a split second; accordingly, “[a] first impression must persuade readers
that they may have a stake in the class action and that
they will be able to comprehend the notice.” (Id.) Plaintiff has therefore borrowed the FJC’s suggested format
for the heading of a notice. (Compare Helland Decl.
Exh. 13 with Exh. 14.) The rest of the notice contains a
straightforward explanation of the collective action
and the employee’s [16] right to join the collective action.
The Court should approve Plaintiff’s proposed notice.
1. Reminder Postcard
Plaintiff requests that the Court authorize Plaintiff to send a reminder notice to putative members of

100a
the collective 21 days before the 60-day deadline for
opting in expires. Defendants suffer no prejudice by ensuring putative members of the collective receive
timely notice, giving them a fair opportunity to join the
case in a timely manner. There is no cost to Defendants
and no delay to the disposition of this matter if putative class members are reminded of the deadline to
join. A potential opt-in who reviews the initial notice
and decides not to join this case may simply discard
the reminder postcard. On the other hand, a potential
opt-in who fails to read the initial notice – for whatever
reason – would be left unaware of her rights without a
reminder postcard. Reminders have been regularly approved by courts. See, e.g., Boyd, 2013 WL 6536751, *4
(approving a reminder notice); Ramirez v. Ghilotti
Bros, Inc., 941 F. Supp. 2d 1197, 1121 (N.D. Cal. Apr.
25, 2013 (authorizing a second notice, substantially the
same as the first, as a reminder 45 days after the first
notice); Sanchez, 2012 WL 2945753, at *6 (finding a
second notice or a reminder appropriate in an FLSA
action since the individual is not part of the class unless he or she opts-in); Helton v. Factor 5, Inc., 2012 WL
2428219, at *7 (N.D. Cal. June 26, 2012) (ordering a
reminder postcard be sent to potential plaintiffs 30
days before deadline for opting in); Harris v. Vector
Marketing Corp., 716 F. Supp. 2d 835, 847 (N.D. Cal.
2010) (finding a reminder postcard appropriate “[p]articularly since the FLSA requires an opt-in procedure”);
Gee v. Suntrust Mortgage, Inc., 2011 WL 722111, at *4
(N.D. Cal. Feb. 18, 2011) (permitting a reminder notice
45 days after issuance of the first notice). Reminder letters, moreover, lower the number of late opt-ins, thus

101a
reducing the burden on the Court in deciding whether
late opt-ins should be allowed to join. Plaintiffs’ proposed reminder postcard is attached as Helland Decl.
Exh. 19.
[17] 2. Email Notice
Plaintiff proposes that notice be distributed by
email as well as physical mail Email is an essential
means of communication, and provides a cheap and efficient manner of distribution of notice. Syed v. M-I,
L.L.C., 2014 WL 6685966, at *8 (E.D. Cal. Nov. 26,
2014) (“email is an increasingly important means of contact”); Phelps v. MC Commc’ns, Inc., 2011 WL 3298414,
at *6 (D. Nev. Aug. 1, 2011) (“Email is an efficient, reasonable, and low-cost supplemental form of notice”).
Accordingly, Plaintiff requests that the Court authorize distribution of an email with the subject “IHSS
Overtime Lawsuit Notice” and the following text:
A collective action lawsuit has been filed in
federal court in the Central District of California. You may be able to join the lawsuit if you
worked as an IHSS Homecare Provider for the
California Department of Social Services/ the
Los Angeles County Department of Public Social Services from January 1, 2015 to February 1, 2016 and worked over forty (40) hours
in a week without receiving time-and-a-half
overtime premium pay. To learn more about
this lawsuit please visit http://www.nka.com/
wp-content/uploads/2017/06/IHSS-Notice.pdf.

102a
See Bazzell v. Body Contour Centers, LLC, 2016 WL
3655274, at *8 (W.D. Wash. July 8, 2016) (approving
similar email notice).
Distribution of notice by email in addition to US
Mail is the best way to ensure that putative collective
members receive actual notice. Given the cost of housing in Los Angeles County, it is likely that some of the
low wage workers in the putative collective will have
moved, rendering notice by mail ineffective. “In contrast, email addresses are retained and usually remain
the same regardless of where one is residing. In this
case, email addresses could be a very useful method to
provide notice and would certainly be a less intrusive
and more cost efficient alternative to calling residential and cell phone numbers.” Schemkes v. Presidential
Limousine, 2011 WL 868182, at *4 (D. Nev. Mar. 10,
2011); accord Margulies v. [18] Tri-Cty. Metro. Transp.
Dist. of Oregon, 2013 WL 5593040, at *21 (D. Or. Oct.
10. 2013) (email is “efficient and nonintrusive”).
Recognizing that email is ubiquitous, cheap, efficient, and nonintrusive, courts have shown an increasing recognition that electronic communication is an
appropriate and efficient means of notifying individuals of their right to opt in. See Lewis v. Wells Fargo &
Co., 669 F. Supp. 2d 1124, 1128-29 (N.D. Cal. 2009);
Coates v. Farmers Grp., Inc., 2015 WL 8477918, at *13
(N.D. Cal. Dec. 9, 2015); Nikmanesh v. Wal-Mart Stores,
Inc., 2015 WL 12683964, at *4 (C.D. Cal. Aug. 18, 2015);
Johnson v. Pink Spot Vapors, Inc., 2015 WL 1413614,
at *6 (D. Nev. Mar. 27, 2015); Woods v. Vector Mktg.
Corp., 2015 WL 1198593, at *4 (N.D. Cal. Mar. 16, 2015)

103a
(notice program included official website where putative members could submit an electronic opt-in form,
email notice and reminder email, reminder postcard,
and targeted publication through Facebook ads); Syed,
2014 WL 6685966, at *8; Vance v. Cuarto LLC, 2014
WL 12646033, at *4 (D. Or. Oct. 6, 2014); Guy v. Casal
Inst. of Nevada, LLC, 2014 WL 1899006, at *7 (D. Nev.
May 12, 2014); Thomas v. Kellogg Co., 2014 WL 716152,
at *3 (W.D. Wash. Jan. 9, 2014); Bonner v. SFO Shuttle
Bus Co., 2013 WL 6139758, at *4 (N.D. Cal. Nov. 21,
2013); Davis v. Westgate Planet Hollywood Las Vegas,
LLC, 2009 WL 102735, at * 15 (D. Nev. Jan. 12, 2009).
The Court should recognize this trend and approve email notice here. There is no prejudice to Defendants if workers receive notice by mail and email,
but there could be great prejudice to employees who do
not receive, read, or understand2 the physical notice.
Combining email and U.S. Mail greatly increases the
likelihood that individuals will receive actual notice.
The Court should approve Plaintiff ’s request to send
notice by email.
[19] 3. Posting Notice
Plaintiff requests that the Court order Defendants
to post notice in the eight county locations.3 Posting
2

As explained below, Plaintiff proposes to send email notice
in English and the language that putative collective members
identify as their primary language.
3
See http://dpss.lacounty.gov/wps/portal/dpss/main/home/officelocations?program=ihss&title=IHSS%20Offices.

104a
notice is “an effective means of reaching potential
plaintiffs that, for whatever reason, did not receive notice by mail or email.” Margulies, 2013 WL 5593040, at
*21. Posting notice is “a cost-efficient way to notify potential opt-in plaintiffs of the action and places no burden on Defendants.” Coyle v. Flowers Foods Incorporated,
2016 WL 4529872, at *7 (D. Ariz. Aug. 30, 2016).
Numerous district courts in the Ninth Circuit
have approved posting notice, particularly where there
are a limited number of facilities. Id. at *6 (twelve
warehouse locations); Ramirez, 941 F. Supp. 2d at 121112 (posting notice in English and Spanish at four locations); Carrillo v. Schneider Logistics, Inc., 2012 WL
556309, at **12-13 (C.D. Cal. Jan. 31, 2012), aff ’d, 501
F. App’x 713 (9th Cir. 2012) (approving request to post
notice in five locations at each warehouse, “including
at the entry and in the lunchroom of each warehouse,
that are accessible to the workers and including where
other notices of workplace rights are posted”); Bados
Madrid v. Peak Constr., Inc., 2009 WL 2983193, at *3
(D. Ariz. Sept. 17, 2009) (“defendants are ordered to
post notice of the collective action on their premises for
the 45-day notice period.”); Adams v. Inter-Con Sec.
Sys., Inc., 242 F.R.D. 530, 542 (N.D. Cal. 2007) (posting
of notice at locations with fifteen of more security officers).
Posting notice is appropriate here. First, since
there is a limited number of locations (only eight locations provide IHSS services in Los Angeles County),
posting notice poses no appreciable burden for Defendants. Second, it is likely that Defendants will have

105a
outdated contact information for some of the low wage
workers at issue (all earn $11.00 per hour). Given that
such posting has a “potential [20] for efficiently and effectively reaching similarly situated workers,” the
Court should order posting notice. See Carillo, 2012
WL 556309, at *13.
4. Text Message Notice
Traditional means of notice like mail, email, and
posting may still be ineffective at providing notice to
members of this putative collective. The low-income,
low-education, and mostly-immigrant putative collective members in this case are less likely to have
reliable internet access and are subject to housing
displacement (and thus change of address). Further,
IHSS homecare providers are not required to visit LA’s
IHSS offices after having completed the background
check and onboarding process, so many providers may
not see a physical office posting. Accordingly, email,
U.S. mail, and posting alone may be ineffective means
of providing notice. In response to similarly transient
and difficult-to-contact collectives, courts nationally
have begun to approve text message notice in actions
like this one.
IHSS homecare providers in California are “mainly
middle-aged women of low-incomes.” (Helland Decl. Exh.
20 at 3.) In Los Angeles County, only 20% of homecare
providers are white. (Helland Decl. Exh. 21 at 49.)
Fifty-eight percent are foreign-born, and 79% are female. Id. The majority (85%) are not college graduates.

106a
Id. In 2015, homecare providers made $9.65 an hour.
(Helland Decl, Exh. 5.) This is below the 2015 living
wage for Los Angeles County, which was $12.44/hour
in 2015 with no dependents. (Helland Decl. Exh. 22.)
In sum, the population of IHSS homecare providers, and accordingly the members of the putative collective in this case, are low-income individuals who
lack access to education and resources. This poses a
challenge to issuing effective notice. Low-income individuals are less likely than the general population to
have reliable internet access, which poses challenges
to email notice. (Helland Decl. Exh, 23 at 2 (“Nine in
ten low- and moderate-income families have an Internel connection” but “[o]f those who do . . . half of those
with home access say their [21] connections are too
slow for useful work. One in five families with Internet
access says their connection has been cut off in the past
year”).) Low-income people also face housing instability, as they are vulnerable to eviction which would inevitably lead to an address change, thus rendering U.S.
mail notice ineffective. (See Helland Decl. Exh. 24 at 1
(“Renters need to earn 4 times local minimum wage to
afford the median asking rent of $2,400 . . . lowest-income renters spend 70% of income or rent, leaving little left for food, transportation, health expenses”).)
While U.S. mail, email, and posting alone may therefore be ineffective, text message notice will help ensure
notice reaches more members of the putative collective.
Although low income people may have unreliable internet access and inconsistent mailing addresses,
they are nonetheless likely to have a cell phone (See

107a
Helland Decl. Exh. 25 (92% of adults with an income of
less than $30,000 a year and 95% of adults with an income below $50,000 a year own a cell phone).) Text
messaging then, can fill in the gap for this collective
and ensure that members receive actual notice. Courts
around the country have realized the utility of text
message notice in similar cases. Irvine v. Destination
Wild Dunes Mgmt., Inc., 132 F.Supp.3d 707, 711 (D.S.C.
2015) (“The request that notice be distributed via direct mail, email and text messaging appears eminently
reasonable to the Court. This has become a much more
mobile society with one’s email address and cell phone
number serving as the most consistent and reliable
method of communication Political candidates now
routinely seek out their supporters’ cell phone numbers and email addresses because traditional methods
of communication via regular mail and land line telephone numbers quickly become obsolete.”); Regan v.
City of Hanahan, 2017 WL 1386334, at *3 (D.S.C. Apr.
17, 2017) (“Mail, email and text message notice is reasonable because, in today’s mobile society, individuals
are likely to retain their mobile numbers and email addresses even when they move.”); Eley v. Stadium Grp.,
LLC, 2015 WL 5611331, at *4 (D.D.C. Sept. 22, 2015)
(granting request for text message notice because the
request was “in line with what [22] has been approved
in other FLSA collective actions”) (citing Bhumithanarn v. 22 Noodle Mkt. Corp., 2015 WL 4240985,
at *5 (S.D.N.Y. July 13, 2015)).
Courts have also recognized the utility of text message notice in cases where, as here, the workforce at

108a
issue has a high turnover rate. (See Helland Decl. Exh.
26 (“Historically, the annual turnover rate within the
IHSS workforce has been about one-third.”)); Martin
v. Sprint/united Mgmt. Co., 2016 WL 30334, at *19
(S.D.N.Y. Jan. 4, 2016) (granting text message notice
due to high turnover rate among employees); Bhumithanarn, 2015 WL 4240985, at *5 (S.D.N.Y. July 13,
2015) (“[G]iven the high turnover characteristic of the
restaurant industry, the Court finds that notice via
text message is likely to be a viable and efficient means
of communicating with many prospective members of
this collective action.”).
This Court should order notice in the form of text
message as well as U.S. mail, email, and posting, so as
to best realize the benefits offered by collective actions
(namely, judicial efficiency and lower individual litigation costs) that “depend on employees receiving accurate and timely notice.” Hoffmann-La Roche, 493 U.S.
at 170. At the very least, the Court should utilize some
combination of these alternative methods of notice,
and should not rely solely on U.S. Mail.
5. Language Access
Finally, to facilitate provision of notice to potential
opt-in plaintiffs who are non-English speakers, Plaintiff requests that Defendant identify each putative
collective member’s primary written language. This
information will be readily available, because Defendants request this information during the job application process (Helland Decl. Exh. 3.)

109a
Following the initial distribution of notice, Plaintiff
proposes that the Parties select certified translators
from the Court’s website4 to translate the approved notice and email notice into any language spoken by
more than 5% of the putative [23] collective, and these
translated notices would be posted online. For individuals identified as speaking these languages, their
email notice would contain the English text, followed
by the same text in their primary language, including
a link to the translated notice. Additionally, the following sentence would be translated and added to the reminder postcard: “This notice is also available in
[language] online at [website link].”
This procedure will dramatically increase the likelihood that workers receive actual notice, with minimal increase in cost, and without burdening anyone
with duplicative notices. Given that the putative collective likely includes many non-English speakers, and
that Defendants have information about their primary
language, it is appropriate to make sure potential optins have access to notice in their primary language. See
Ramirez, 941 F. Supp. 2d 1197, 1211-12 (notice distributed and posted English and Spanish); Carrillo, 2012
WL 556309, at *12 (notice distributed in English and
Spanish, and summary of notice provided to local media in English and Spanish).

4

See http://court.cacd.uscourts.gov/cacd/IntRoster.nsf/29dd6cbe
6c9b013988256fe9007b65d7?OpenView.

110a
IV. CONCLUSION
Defendants uniformly failed to pay overtime to
Plaintiff and LA IHSS Homecare Workers prior to February 1, 2016, based on a uniform decision to delay implementation of FLSA regulations. The Court should
conditionally certify the FLSA collective and authorize
distribution of Judicial Notice.
Dated: July 3, 2017

NICHOLS KASTER, LLP
By: s/Matthew C. Helland
Matthew C. Helland
Attorneys for Plaintiff and
Others Similarly Situated

111a
Matthew C. Helland, CA SBN 250451
helland@nka.com
Daniel S. Brome, CA SBN 278915
dbrome@nka.com
NICHOLS KASTER, LLP
235 Montgomery St., Suite 810
San Francisco, CA 94104
Telephone: (415) 277-7235
Facsimile: (415) 277-7238
Attorneys for Plaintiff and Others Similarly Situated
IN THE UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Trina Ray, individually,
and on behalf of others
similarly situated,
Plaintiff,
v.
California Department
of Social Services, and
Los Angeles County
Department of Public
Social Services
Defendants.

Case No.
COLLECTIVE ACTION
COMPLAINT FOR
DAMAGES AND
RESTITUTION
(Filed Jun. 7, 2017)
(1) Failure to Pay Overtime Compensation in
Violation of the Fair
Labor Standards Act
(29 U.S.C. § 201, et seq.)

PRELIMINARY STATEMENT
1. This is a collective action brought by Individual Plaintiff Trina Ray (“Plaintiff ”) on her own behalf
and on behalf of the proposed FLSA Collective. Plaintiff and the putative collective are or were employed by

112a
the California Department of Social Services and/or
the Los Angeles County Department of Public Social
Services (“Defendants”), as homecare workers, home
care providers, or in other similar job titles through the
In-Home Supportive Services program (collectively,
“IHSS Homecare Providers”) and were denied proper
compensation as required by federal wage and hour
laws. These employees are similarly situated under the
Fair Labor Standards Act (“FLSA”), 29 U.S.C. § 216(b).
2. The FLSA Collective is made up of all persons
who have been employed by Defendants as IHSS
Homecare Providers and who were paid for hours in
excess of forty (40) per week at a rate of less than 1.5
times their regular rate at any time from January 1,
2015 to February 1, 2016 (the “Collective Period”).
3. During the Collective Period, Defendants failed
to pay overtime compensation to Plaintiff and each
member of the FLSA Collective as required by federal
law. Plaintiff seeks relief for herself and for the FLSA
Collective under the FLSA requiring Defendants to
pay appropriate overtime compensation.
THE PARTIES
4. Plaintiff Trina Ray (“Plaintiff Ray”) is an individual residing in Los Angeles, California (Los Angeles
County).
5. Plaintiff Ray is currently employed by Defendants as an IHSS Homecare Provider. She worked the
first of two stints of employment for Defendants from

113a
approximately 2010 or 2011 until approximately October 2015. Defendants then re-hired Plaintiff in approximately September or October 2016 and have employed
her since. Throughout her employment with Defendants, Plaintiff Ray has reported to the IHSS office located in Rancho Dominguez, California (Los Angeles
County).
6. The In-Home Supportive Services (“IHSS”)
program provides in-home assistance to eligible aged,
blind, and disabled individuals as an alternative to
out-of-home care. IHSS currently serves over 550,000
recipients through over 460,000 homecare workers
(providers). Services covered by the IHSS program
include domestic services (e.g. housework, meal preparation, laundry, running errands), non-medical care
services (such as bathing, dressing, bladder care);
transportation services (to medical appointments), and
paramedical services (necessary health care activities
that recipients would normally perform for themselves
were it not for their functional limitations).
7. According to its website, the mission of the
California Department of Social Services (CDSS) is to
serve, aid, and protect needy and vulnerable children
and adults throughout the State of California. CDSS
is responsible for the oversight of programs, including IHSS, which serve more than eight million people
across the state.
8. According to its website, the Los Angeles Department of Public Social Services (DPSS) is the second largest department in Los Angeles County and is

114a
the largest social service agency in the United States.
DPSS is involved in the administration and oversight
of the IHSS program at the county level.
9. Defendants’ gross annual sales made or business done has been $500,000.00 or greater at all times
relevant herein. Defendants operate in interstate commerce by, among other things, receiving federal funding for the programs they administer.
JURISDICTION AND VENUE
10. This Court has subject matter jurisdiction
pursuant to 28 U.S.C. § 1331 as this case is brought
under the FLSA, 29 U.S.C. §§ 201 et seq. Plaintiff Ray
has signed a consent form to join this lawsuit, which is
attached as Exhibit A. As this case proceeds, it is likely
other individuals will file consent forms and join as
opt-it plaintiffs.
11. Venue is proper in the United States District
Court, Central District of California pursuant to 28
U.S.C. § 1391, because Defendants operate in this district and because a substantial part of the events giving rise to the claims occurred in this district.
FACTUAL ALLEGATIONS
12. Plaintiff re-alleges and incorporates by reference the above paragraphs as if fully set forth herein.
13. Plaintiff and those similarly situated are individuals who were or are employed by Defendants as

115a
homecare providers through the In-Home Supportive
Services program at any time between January 1, 2015
and February 1, 2016 (the “Collective Period”). As
IHSS Homecare Providers, Plaintiff and the similarly
situated individuals were responsible for providing inhome assistance for IHSS recipients.
14. At all relevevant times, Defendants are, or
have been, Plaintiff ’s and the similarly situated individuals’ “employers” within the meaning of the FLSA,
29 U.S.C. § 203(d).
15. For example, Defendant CDSS exercises significant control over IHSS Homecare Providers’ work.
CDSS provides the form IHSS Homecare Providers use
to apply for employment. CDSS issues payment to
IHSS Homecare Providers, and CDSS has control over
the number of hours IHSS Homecare Providers may
work. CDSS also played a role in deciding whether to
pay overtime to IHSS Homecare Providers.
16. Defendant DPSS also exercises significant
control over IHSS Homecare Providers’ work. IHSS
Homecare Providers apply for work by submitting the
CDSS employment form to DPSS. DPSS maintains
several offices within Los Angeles County, which serve
as the employment touchpoints for IHSS Homecare
Providers. DPSS also requires that IHSS Homecare
Providers record their hours via weekly timesheets
and submit them to its offices throughout Los Angeles
County. DPSS is responsible for reviewing requests by
IHSS Homecare Providers to work more than the preapproved maximum weekly hours. IHSS Homecare

116a
Providers regularly interact with DPSS employees regarding changes in recipients’ health and/or condition.
IHSS Homecare Providers also interact with DPSS
employees regarding inquiries related to their pay.
17. During the Collective Period, Defendants suffered and permitted Plaintiff to regularly work more
than forty (40) hours in certain workweeks without
providing appropriate overtime compensation. Upon
information and belief, Defendants also suffered and
permitted the members of the FLSA Collective to regularly work more than forty (40) hours in certain workweeks during the Collective Period.
18. During the Collective Period, Plaintiff and
those similarly situated were not compensated in accordance with the FLSA because they were not paid
proper overtime wages for all hours worked in excess
of forty (40) per workweek. Specifically, rather than
paying them 1.5 times their regular rate of pay for all
hours worked over forty (40) in a workweek, which is
required by the FLSA (29 U.S.C. § 207), Defendants
paid them “straight time” for all of their overtime
hours worked.
19. Plaintiff and those similarly situated have
been eligible for overtime since at least January 1,
2015, when the Department of Labor implemented
new regulations regarding overtime pay for home
health care workers. Defendants were aware of the
new regulations but did not begin paying overtime to
IHSS Homecare Providers until February 1, 2016.

117a
20. Defendants are aware, or should have been
aware, that Plaintiff and the FLSA Collective performed work that required them to work overtime. For
example, Defendants informed Plaintiff of the total
number of service hours her client (the recipient enrolled in the IHSS program) was approved to receive
each month. In addition, Defendants required Plaintiff
and those similarly situated to report their work hours
via weekly timesheets, which routinely reflected overtime hours.
21. During the Collective Period, Plaintiff ’s client was approved to receive approximately 283 hours
of services each month through the IHSS program,
which is an average of approximately 66 hours per
week. As a result, Plaintiff regularly worked well in
excess of 40 weekly hours. Defendants failed to pay
Plaintiff the required rate of one and one-half times
her regular hourly rate for any of the overtime hours
she worked.
COLLECTIVE ACTION ALLEGATIONS
22. Plaintiff brings this action on behalf of herself and other similarly situated employees as authorized under the FLSA, 29 U.S.C. § 216(b). Plaintiff ’s
consent form is attached to this Complaint as Exhibit
A.
23. The proposed FLSA Collective class is defined as follows:

118a
All people employed by Defendants as homecare workers, home care providers, or in other
similar job titles, through the In-Home Supportive Services program, and who were paid
for hours in excess of forty (40) per week at a
rate of less than 1.5 times their regular rate
at any time from January 1, 2015 to February
1, 2016.
24. Pursuant to the FLSA, 29 U.S.C. § 207, employers are generally required to pay overtime compensation at a rate of 1.5 times an employees’ regular
rate of pay for hours worked over forty (40) in a workweek.
25. The FLSA contains an exemption from overtime for “domestic service” workers who provide companionship and other services to individuals who are
unable to care for themselves and also contains an exemption for live-in domestic service workers. 29 U.S.C.
§§ 213(a)(15) and 213(b)(21).
26. In October 2013, the United States Department of Labor determined that these exemptions do
not apply to domestic-service workers employed by
third-party agencies or employers.
27. Since January 1, 2015, federal regulations
have provided that domestic-service workers employed
by third-party agencies or employers are not exempt
from the FLSA’s minimum wage and overtime requirements. 29 C.F.R. § 552.109(a).
28. As of January 1, 2015, all domestic-service
workers employed by third-party agencies or employers

119a
are entitled to overtime compensation at an hourly
rate of 1.5 times the employee’s regular rate of pay for
hours worked over forty (40) in a work week.
29. During the Collective Period, Plaintiff and
the FLSA Collective routinely worked in excess of forty
(40) hours per workweek without receiving proper
overtime compensation for their overtime hours worked.
30. Despite the Department of Labor’s positon
that domestic-service workers employed by third-party
agencies or employers are not exempt from the FLSA’s
minimum wage and overtime requirements, Defendants maintained their practice of failing to pay the
proper overtime compensation to Plaintiff and the
FLSA Collective from January 1, 2015 to February 1,
2016. In so doing, Defendants violated the provisions
of the FLSA, 29 U.S.C. §§ 207 and 215(a)(2).
31. Defendants were aware that they were not
compensating Plaintiff and the FLSA Collective for
overtime between January 1, 2015 and February 1,
2016, and were aware of the new Department of Labor
regulations.
32. Defendants knowingly, willfully, or in reckless disregard of the law, maintained an illegal practice
of failing to pay Plaintiff and the FLSA Collective
proper overtime compensation for all hours worked
over forty (40).
33. Defendants are liable under the FLSA for
failing to properly compensate Plaintiff and the FLSA
Collective, and as such, notice should be sent to the

120a
Collective. There are numerous similarly situated current and former employees of Defendants who have
been denied overtime pay in violation of the FLSA who
would benefit from the issuance of Court-supervised
notice of this lawsuit and the opportunity to join. Those
similarly situated employees are known to Defendants
and are readily identifiable through Defendants’ records.
CLAIM FOR RELIEF
FAIR LABOR STANDARDS ACT
29 U.S.C. §§ 201 et seq.
(On Behalf of Plaintiff and the FLSA Collective)
34. Plaintiff and the FLSA Collective allege and
incorporate by reference the allegations in the preceding paragraphs.
35. The FLSA requires covered employers, such
as Defendants, to compensate all non-exempt employees at a rate of not less than one and one-half times the
regular rate of pay for work performed in excess of
forty hours per work week.
36. Plaintiff and the FLSA Collective are entitled to be paid overtime compensation for all hours
worked over forty (40) per workweek. By failing to pay
Plaintiff and the FLSA Collective overtime compensation of one and one-half times their hourly rate of pay
for the overtime hours they worked, Defendants violated the FLSA, 29 U.S.C. §§ 201 et seq.

121a
37. Defendants knew, or showed reckless disregard for the fact, that it failed to pay these individuals
overtime compensation in violation of the FLSA.
38. The foregoing conduct, as alleged, constitutes
a willful violation of the FLSA, within the meaning of
29 U.S.C. § 255(a).
39. Plaintiff, on behalf of herself and the FLSA
Collective, seeks damages in the amount of all unpaid overtime compensation owed to herself and the
FLSA Collective, liquidated damages as provided by
the FLSA, 29 U.S.C. § 216(b), interest, and such other
legal and equitable relief as the Court deems just and
proper.
40. Plaintiff, on behalf of herself and the FLSA
Collective, seeks recovery of attorneys’ fees and costs
to be paid by Defendants, as provided by the FLSA, 29
U.S.C. § 216(b).
PRAYER FOR RELIEF
WHEREFORE, Plaintiff, on behalf of herself and
all members of the FLSA Collective, prays for relief as
follows:
A.

Designation of this action as a collective action on behalf of Plaintiff and those similarly
situated and prompt issuance of notice pursuant to 29 U.S.C. § 216(b) to all those similarly
situated apprising them of the pendency of
this action, and permitting them to assert

122a
timely FLSA claims in this action by filing individual consent forms pursuant to 29 U.S.C.
§ 216(b);
B.

Judgment that Plaintiff and those similarly
situated are non-exempt employees entitled
to protection under the FLSA;

C.

Judgment against Defendants for violation of
the overtime provisions of the FLSA;

D. Judgment that Defendants’ violations as described above were willful;
E. An award in an amount equal to Plaintiff ’s
and the FLSA Collective’s unpaid back wages
at the applicable overtime rate;
F.

An award to Plaintiff and those similarly situated for the amount of unpaid wages owed,
liquidated damages and penalties where provided by law, and interest thereon;

G. An award of reasonable attorneys’ fees and
costs pursuant to 29 U.S.C. § 216 and/or other
applicable laws;
H. An award of prejudgment interest to the extent liquidated damages are not awarded;
I.

Leave to add additional plaintiffs by motion,
the filing of written consent forms, or any
other method approved by the Court;

J.

Leave to amend to add additional county
agency defendants, if necessary; and

123a
K. For such other and further relief, in law or equity, as this Court may deem appropriate and
just.
Dated: June 7, 2017

NICHOLS KASTER, LLP
By: s/Matthew C. Helland
Matthew C. Helland
Attorneys for Plaintiff
and Others Similarly Situated

EXHIBIT A
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

CALIFORNIA DEPARTMENT OF SOCIAL
SERVICES LOS ANGELES COUNTY DEPARTMENT OF PUBLIC SOCIAL SERVICES (DPSS)
PLAINTIFF CONSENT FORM
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

1.

I consent to make a claim under the Fair Labor
Standards Act, 29 U.S.C. § 201, et seq. against my
current/former employer(s), the California Department of Social Services, the Los Angeles County
Department of Public Social Services (“Defendants”), and any other related entities or affiliates,
to recover overtime pay.

2.

During the past three years, there were occasions
when I worked over 40 hours per week for defendants as a home health care worker, or similar job
title, and did not receive proper compensation for
my overtime hours worked.

124a
3.

If this case does not proceed collectively, then I also
consent to join any subsequent action to assert
these claims against Defendants and an ether related entities or affiliates.

Dated: 6/01/2017

Trina Ray
Signature
Trina Ray
Print Name

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Information Below Will Be Redacted in Filings with
the Court. Please Print or Type.
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Return this form by Nicholas Kaster, PLLP,
fax, email or mail to: Attn: Matthew C. Helland
Fax: (612) 215-6870
Email: forms@nka.com
Address: 4600 IDS Center,
80 S. 8th Street,
Minneapolis, MN 55402
Web: www.nka.com

125a
STATE OF CALIFORNIA—HEALTH AND
HUMAN SERVICES AGENCY
DEPARTMENT OF SOCIAL SERVICES
744 P Street • Sacramento, CA 95814 •
www.cdss.ca.gov
[LOGO]
WILL LIGHTBOURNE
DIRECTOR

[SEAL]
EDMUND G. BROWN JR.
GOVERNOR

November 4, 2015
Statement regarding federal regulations
that require the payment of overtime wages
for certain home care workers
(Filed Aug. 4, 2017)
Due to recent court action, California is moving ahead
to meet federal regulations that require the payment
of overtime wages for certain home care workers who
work more than forty hours in a workweek. These workers in California include providers of In-Home Supportive Services (IHSS), waiver personal care services,
and certain assistive services for developmentally disabled individuals. State law provides mechanisms for
payments and establishes caps on the number of hours
that a provider may work within a given workweek.
Following consultation with consumer advocates and
unions representing providers, the Administration is
moving forward on a variety of activities that together
will enable the payment of overtime wages in biweekly
payrolls beginning on February 1, 2016. These activities include:

126a
• Updating the timesheets used in these programs to
enable the capture of hours worked in excess of forty
hours per workweek,
• Training the State’s nearly 400,000 service providers and 500,000 home care services recipients in how
to fill out and approve the new timesheets,
• Implementing workweek agreements for providers
serving multiple consumers,
• Preparing county staff to assist with workweek
agreements and resolve timesheet errors,
• Finalizing changes to the automated case management and payroll system to enable overtime payments,
and
• Adding a new IHSS service category for accompaniment to medical appointments, and enabling payment for travel incurred while serving multiple
recipients on the same day.
In addition to the activities above, recipients and providers will be notified of associated program changes
in advance of the February 1 date, to allow time for
them to identify additional service providers if necessary. As many providers serve and are paid in more
than one program under the home care service system,
all programs will commence regular payment of overtime and travel on February 1, 2016.
The State is committed to moving forward expeditiously on these activities, in a manner that is safe for
consumers, fair to providers, and minimizes disruption

127a
to the paychecks upon which so many Californians depend.

128a
STATE OF CALIFORNIA—HEALTH AND
HUMAN SERVICES AGENCY
DEPARTMENT OF SOCIAL SERVICES
744 P Street • Sacramento, CA 95814 •
www.cdss.ca.gov
[LOGO]
WILL LIGHTBOURNE
DIRECTOR

[SEAL]
EDMUND G. BROWN JR.
GOVERNOR

January 5, 2015
REASON FOR THIS
TRANSMITTAL
[ ] State Law Change
ALL-COUNTY INFOR- [ ] Federal Law or Regulation Change
MATION NO. I-73-14
[ ] Court Order
[ ] Clarification Requested
by One or More Counties
[x] Initiated by CDSS
(Filed Aug. 4, 2017)
TO:

ALL COUNTY WELFARE DIRECTORS
ALL IN-HOME SUPPORTIVE SERVICES (IHSS) PROGRAM MANAGERS

SUBJECT: INFORMATION REGARDING FEDERAL COURT ORDER IMPACTING
THE IMPLEMENTATION OF THE
FEDERAL DEPARTMENT OF LABOR
REGULATIONS PERTAINING TO THE
PAYMENT OF OVERTIME COMPENSATION AND OTHER COMPENSABLE
ACTIVITIES AND TO RELATED

129a
PROVISIONS OF SENATE BILLS 855
AND 873 (CHAPTERS 29 AND 685,
STATUTES OF 2014) FOR THE IHSS
AND WAIVER PERSONAL CARE
SERVICES PROGRAMS
This All-County Information Notice is to inform counties of the two recent court orders issued by Judge
Richard Leon of the United States District Court, District of Columbia, which impact the implementation of
regulations adopted by the U.S. Department of Labor
(DOL) pertaining to the payment of overtime compensation and other compensable activities for In-Home
Supportive Services (IHSS) and Waiver Personal Care
Services (WPCS) providers that were to be effective
January 1, 2015.
The first court order, dated December 22, 2014, vacated
the DOL rule which precluded third-party employers
from claiming applicable wage and overtime exemptions for services provided by live-in providers and
employees performing companionship services. The
second court order, dated December 31, 2014, enjoined
the implementation of the revised definition of companionship services until January 15, 2015. However,
a court hearing regarding the temporary injunction is
calendared for January 9, 2015 wherein further information may be ascertained regarding the federal regulations at issue.
Based on the above-referenced court orders, CDSS Director Will Lightbourne notified County Welfare Directors on December 31, 2014, that the implementation
of the new FLSA regulations and the key provisions of

130a
Senate Bills 855 and 873 will be delayed until further
court clarification.
All county IHSS offices and county public authorities
should continue to operate under the requirements
and regulations for payment of wages that were in
effect on December 31, 2014. CDSS is continuing to
move forward with the new timesheet format, but
CMIPS II programming will not process payments for
overtime or travel time until further clarification is ascertained based on the court decisions.
In those instances in which counties have conducted
assessments that included wait time adjustments for
medical accompaniment and those adjustments were
entered into CMIPS II, counties will need to ensure
that these adjustments are removed from CMIPS II
with utmost expediency. However, counties should retain this information within the IHSS recipient’s case
file for future reference.
An information notice is currently in development to
inform all IHSS providers and recipients of this delay.
Mailing of the notices will begin this week to all IHSS
providers and recipients. Please see attachment.
Depending on future court rulings, CDSS will issue
further guidance to the counties via a Program Manager Letter, All-County Information Notice, or AllCounty Letter.
If you have any questions regarding this information, please call the Adult Programs Policy and
Quality Assurance Branch, Policy and Operations

131a
Bureau, Provider Policy and Adult Protective Services
Unit, at (916) 651-5350.
Sincerely,
Original Document Signed By Hafida Habek, acting for:
EILEEN CARROLL
Deputy Director
Adult Programs Division
Attachment
C:

CWDA
CAPA

IMPORTANT NOTICE TO ALL IN-HOME SUPPORTIVE SERVICES (IHSS) PROGRAM RECIPIENTS AND PROVIDERS
Dear IHSS Recipients and IHSS Providers,
On Wednesday, December 31, 2014 the US District Court
in Washington, D.C. temporarily stopped the federal
overtime pay requirements for home care workers
which was due to go into effect January 1, 2015.
This means that:
•

The IHSS program in California will not be
implementing payments for overtime, travel
time, or wait time for providers of services at
this time, and

•

The “hours cap” of 61 hours per week for each
provider will not go into effect at this time.

132a
Timecards will be issued in time for the January 15th
payroll, but all authorized hours worked will be paid
at straight-time (the locally bargained hourly wage)
only, and travel and wait time will not be paid. This
means providers will be paid the same way they
were in 2014 until further notice.
The IHSS program will notify you if or when there are
any further changes.

